FEDERAL BUREAU OF INVESTIGATION

  ANNUAL FINANCIAL STATEMENTS

       FISCAL YEAR 2011

         U.S. Department of Justice
	
       Office of the Inspector General
	
                Audit Division
	

            Audit Report 12-16
	
              February 2012
	
          FEDERAL BUREAU OF INVESTIGATION

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2011


               OFFICE OF THE INSPECTOR GENERAL

                  COMMENTARY AND SUMMARY


      This audit report contains the Annual Financial Statements of the
Federal Bureau of Investigation (FBI) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed FBI’s audit in
accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2011 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2010, the FBI also received an unqualified
opinion on its financial statements (OIG Report No. 11-07).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors did not
identify any significant deficiencies in the FY 2011 Independent Auditors’
Report on Internal Control over Financial Reporting. However, in the
FY 2011 Independent Auditors’ Report on Compliance and Other Matters, the
auditors noted that FBI’s financial management systems did not substantially
comply with federal financial management system requirements and the
application of the U.S. Government Standard General Ledger at the
transaction level as required by the Federal Financial Management
Improvement Act of 1996 (FFMIA). This noncompliance with the FFMIA was
also reported for FY 2010.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on FBI’s financial statements, conclusions
about the effectiveness of internal control, conclusions on whether FBI’s
financial management systems substantially complied with the FFMIA, or
conclusions on compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 4, 2011, and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with
U.S. generally accepted government auditing standards.
This page intentionally left blank. 

              FEDERAL BUREAU OF INVESTIGATION

                ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2011


                           TABLE OF CONTENTS


                                                                                PAGE
	

MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3
	

INDEPENDENT AUDITORS’ REPORTS
	

  REPORT ON FINANCIAL STATEMENTS ................................................ 25
	

  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 27
	

  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 31
	

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES
	

  CONSOLIDATED BALANCE SHEETS.................................................... 39
	

  CONSOLIDATED STATEMENTS OF NET COST ...................................... 40
	

  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 41
	

  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 42
	

  NOTES TO THE FINANCIAL STATEMENTS ........................................... 43
	

REQUIRED SUPPLEMENTARY INFORMATION
	

  COMBINING STATEMENTS OF BUDGETARY RESOURCES
	
     BY MAJOR APPROPRIATION ....................................................... 68
	
This page intentionally left blank. 

U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



  MANAGEMENT’S DISCUSSION AND ANALYSIS
             (UNAUDITED)




                  -1-
This page intentionally left blank. 





            -2-
                Management’s Discussion and Analysis


                                   U.S. DEPARTMENT OF JUSTICE

                                FEDERAL BUREAU OF INVESTIGATION

                              MANAGEMENT’S DISCUSSION AND ANALYSIS

                                           (UNAUDITED)


MISSION

The Federal Bureau of Investigation (FBI or Bureau) is a component of the United States (U.S.) Department
of Justice (DOJ or the Department) and a member of the U.S. Intelligence Community. The mission of the
FBI is to protect and defend the U.S. against terrorist and foreign intelligence threats, to uphold and enforce
the criminal laws of the U.S., and to provide leadership and criminal justice services to federal, state,
municipal, and international agencies and partners.
After the events of September 11, 2001, Director Robert Mueller set the priorities of the FBI to communicate
how the FBI would address its wide range of responsibilities. In executing the following priorities, the FBI
produces and uses intelligence to protect the nation from threats and to bring to justice those who violate the
law. The first eight priorities are listed in order of precedence. The final two are all-encompassing functions
that support the Bureau’s mission and objectives. The ten priorities are:
        1.      Protect the U.S. from terrorist attack;
        2.      Protect the U.S. against foreign intelligence operations and espionage;
        3.      Protect the U.S. against cyber-based attacks and high-technology crimes;
        4.      Combat public corruption at all levels;
        5.      Protect civil rights;
        6.      Combat transnational and national criminal organizations and enterprises;
        7.      Combat major white-collar crime;
        8.      Combat significant violent crime;
        9.      Support federal, state, local, and international partners; and
        10.     Upgrade technology to successfully perform the FBI's mission.
The DOJ has implemented three Strategic Goals: Goal 1: Prevent Terrorism and Promote the Nation’s
Security; Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
American People; and Goal 3: Ensure the Fair and Efficient Administration of Justice. The FBI reports on
two of three DOJ Strategic Goals. Priorities 1 through 3 support DOJ Goal 1, priorities 3 through 8 support
DOJ Goal 2, and priorities 9 and 10 support both goals.
ORGANIZATION STRUCTURE
In addition to national headquarters (HQ or Headquarters) located in Washington, D.C., the FBI operates 56
field offices and approximately 380 resident agencies across the U.S. and its territories. Support offices are
also located across the country: training centers, forensic laboratories, and engineering research facilities in
Quantico, Virginia; operational support centers in Savannah, Georgia and Butte, Montana; a services center
unit in Pocatello, Idaho; a records storage facility in Frederick County, Virginia; the Hazardous Devices
School at Redstone Arsenal, Alabama; and a fingerprint identification and Criminal Justice Information
Services center in Clarksburg, West Virginia.




Federal Bureau of Investigation                      -3-
                Management’s Discussion and Analysis


Through its Legal Attaché Program, the FBI operates 63 offices (Legats) with 13 sub-offices in 67 countries.
The FBI Legat coverage extends to over 200 countries, territories, and islands.
FBI Headquarters is organized into five main branches headed by Executive Assistant Directors, and several
supporting divisions that are headed by Assistant Directors. Each of the FBI's 56 field offices are headed by
a Special Agent in Charge (SAC), with the exception of the three largest offices - Los Angeles, New York,
and Washington, D.C. - which are headed by an Assistant Director in Charge. SACs are assisted by two or
more Assistant Special Agents in Charge, including one serving as the Intelligence Program Manager. As of
September 30, 2011, the FBI employed 13,900 Special Agents and 21,676 professional support staff.
FINANCIAL STRUCTURE
The FY 2005 Consolidated Appropriations Act established a budget structure of four decision units:
•   Intelligence;
•   Counterterrorism/Counterintelligence (CT/CI);
•   Criminal Enterprises/Federal Crimes; and
•   Criminal Justice Services.
Costs of support functions, such as the Training Division and administrative activities, are prorated across
these four decision units, capturing the total cost of each of the four major mission areas represented by the
decision units. The resources for these support functions are divided based on the share of the operational
(non-support) resources allocated to the core functions of each decision unit. For example, the share of the
total operational resources dedicated to CT/CI was the same as the share of the total support resources
allocated to the CT/CI decision unit.
This budget structure links strategic planning to full program costing. The budget structure also provides an
accurate cost assessment of the FBI’s primary missions and enables the development of performance
measures and program costing based on those missions.
For purposes of executing its budget, the FBI’s funds are organized into the following categories under the
administrative and/or operational control of the FBI: appropriated single, multi-year, and no-year Salaries
and Expense Funds; appropriated no-year Construction Funds; and no-year Violent Crime Reduction
Program Trust Funds. These funds include new appropriations, transfers of appropriations from other federal
agencies, and the carry-over of prior years’ unobligated balances for multi-year and no-year appropriated
funds. Some special appropriations are tied to specific programs, but in general, FBI funds are organized to
support multiple programs.
ANALYSIS OF FINANCIAL STATEMENTS
The FBI’s financial statements received an unqualified audit opinion for Fiscal Years (FYs) 2011 and 2010.
These financial statements have been prepared from the accounting records of the FBI in conformity with
U.S. generally accepted accounting principles issued by the Federal Accounting Standards Advisory Board
and presentation guidelines in the Office of Management and Budget (OMB) Circular A-136, Financial
Reporting Requirements.
Total Assets reflect an overall increase of $307.4 million or five percent, primarily due to an increase in
General Property, Plant and Equipment (PP&E). The FBI recorded capital assets such as Internal-Use
Software, Leasehold Improvements, and high performance aircraft, resulting in a $360.9 million or 16
percent increase from last fiscal year.




Federal Bureau of Investigation                      -4-
                Management’s Discussion and Analysis


Total Liabilities increased $20.7 million or one percent. There was an increase of $67.1 million or 41
percent in the Intra-governmental Accounts Payable and a decrease of $72.2 million or 15 percent in the non-
federal Accounts Payable. The major driver for the Intra-governmental Accounts Payable increase was for
Reimbursable Work Authorizations where the FBI enters into an agreement with the General Services
Administration for contracted services to renovate or build work spaces for the FBI. The major drivers for
the non-federal Accounts Payable decrease were: a reduction in accruals for information technology projects,
a reduction in employee travel transfer vouchers outstanding, a more efficient process for paying invoices,
and a more effective process for reviewing purchase orders.
Net Position increased $286.6 million or six percent in FY 2011. Net Position represents the net investment
of the U.S. government in the FBI, and is comprised of the Unexpended Appropriations and the Cumulative
Results of Operations.
Unexpended Appropriations decreased by $60.7 million or three percent. This decrease is largely
attributable to a decrease in Appropriations Transferred-In/Out. The FBI incurred a net total of $61.2 million
appropriations transferred-out during FY 2011 and a net total of $90.1 million appropriations transferred-in
during FY 2010, related to major intra-governmental initiatives and programs.
Cumulative Results of Operations increased $347.3 million or 14 percent. The Cumulative Results of
Operations is adjusted annually by the results of operations and by other items. Increases (gains) occur when
the results of operations show an excess of financing sources and gains over expenses, losses, and non-
expenditure transfer-out. This increase is mainly attributable to the additions of capital assets in the PP&E
category.
Total Budgetary Resources available for use in FY 2011 was $10.3 billion, a decrease of $89.8 million or
less than one percent over last fiscal year. This total includes: Appropriations Received, Unobligated
Balances Brought Forward, Recoveries of Prior Year Unpaid Obligations, Spending Authority from
Offsetting Collections, Non-expenditure Transfers (net), and Permanently not Available funds.




Federal Bureau of Investigation                    -5-
                Management’s Discussion and Analysis


Table 1 presents the sources of financing for FBI resources distinguished by Earned Revenue, Budgetary
Financing Sources, and Other Financing Sources. Table 2 describes how the FBI spent its resources, divided
across Strategic Goals 1 and 2.
                                      Table 1. Source of FBI Resources
                                           (Dollars in Thousands)
                              Source                                 FY 2011       FY 2010           Change%
Earned Revenue                                                  $      1,277,122 $   1,275,206              0%
Budgetary Financing Sources
  Appropriations Received                                                7,941,932      7,922,537           0%
  Appropriation Transferred-In/Out                                         (61,176)        90,116       (168%)
  Other Adjustments and Other Budgetary Financing Sources                  (15,884)       (50,000)         68%
Other Financing Sources
  Transfers-In/Out Without Reimbursement                                  74,270           69,206           7%
  Imputed Financing from Costs Absorbed by Others                        305,129          354,864        (14%)
Total                                                           $     9,521,393 $      9,661,929         (1% )


                                   Table 2. How FBI Resources are Spent
                                           (Dollars in Thousands)
                         Strategic Goal (SG)                         FY 2011       FY 2010           Change%
SG 1: Prevent Terrorism and Promote the Nation's Security
                                                        Gross Cost $   5,326,383 $   5,185,327
                                             Less: Earned Revenue        463,936       507,996
                                                         Net Cost      4,862,447     4,677,331             4%
SG 2: Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People
                                                      Gross Cost $       3,903,753 $    3,846,770
                                           Less: Earned Revenue            813,186        767,210
                                                       Net Cost          3,090,567      3,079,560          0%

                                                Total Gross Cost         9,230,136      9,032,097
                                     Less: Total Earned Revenue          1,277,122      1,275,206
                                    Total Net Cost of Operations $       7,953,014 $    7,756,891          3%



FY 2011 Financial Highlights
Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security, includes the FBI’s CT/CI
Program, Intelligence Program, Computer Intrusions Program, and Weapons of Mass Destruction (WMD)
Program. In FY 2011, Goal 1 Net Cost was $4.9 billion, a net increase of four percent from FY 2010. The
increase is attributed to additional activity in Computer Intrusions, Counterterrorism, and WMD Response.
This can also be attributed to an overall increase in national security investigative activity.
Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
American People, includes the majority of the FBI's criminal investigative programs and programs
supporting state and local law enforcement. Investigations under Goal 2 include Organized Crime, Drugs,
Violent Crime, White-Collar Crime, and Cyber Crime. The FBI investigates more than 200 categories of



Federal Bureau of Investigation                     -6-
                 Management’s Discussion and Analysis


federal crimes, and monitors activities that threaten the safety of U.S. citizens. Support activities in this goal
include training programs for state and local law enforcement agencies, forensic assistance, fingerprint and
other identification tools, and statistical crime data. In FY 2011, Goal 2 Net Cost was $3.1 billion, a net
increase of less than one percent from FY 2010. The change is attributed to comparatively steady Goal 2
investigative activity.
PERFORMANCE INFORMATION
Data Reliability and Validity
Data reliability and validity are critically important to the FBI’s planning and performance. This document
includes a discussion of data validation, verification, and data limitations for each performance measure
presented. Each reporting component ensures that data meet the following criteria:
        At a minimum, performance data are considered reliable if transactions and other data that support
        performance measures are properly recorded, processed, and summarized to permit the preparation
        of performance information in accordance with criteria stated by management. Performance data
        need not be perfect to be reliable, particularly if the cost and effort to secure the best performance
        data possible will exceed the value of any data so obtained.
Performance measures included in previous FBI Management’s Discussion and Analysis (MD&A)
documents may have changed as a result of new information that was unavailable prior to submitting
previous financial reports. Due to the requirement to disclose performance data in the MD&A before the
close of the data entry period, reports of certain FY 2011 performance measures should be considered
tentative and are annotated accordingly. Other subsequent changes to prior year data may have occurred due
to factors beyond the control of the FBI’s data collection systems (e.g., convictions overturned on appeal).
For previously estimated measures, the FBI reviewed and revised selected FY 2010 performance data from
the FY 2010 MD&A. The FBI’s FY 2012 Authorization and Budget Request to Congress documented these
revisions.




Federal Bureau of Investigation                       -7-
                 Management’s Discussion and Analysis


FY 2011 REPORT ON SELECTED ACCOMPLISHMENTS

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security 61 percent of the FBI’s
Net Cost supports this Goal.

PROGRAM: Counterterrorism
Background/Program Objectives: The FBI is committed to stopping terrorism at any stage, from thwarting
those intending to conduct a terrorist act, to investigating financiers of terrorist operations. All CT
investigations are managed at FBI Headquarters by the Counterterrorism Division (CTD). CTD provides a
centralized, comprehensive, and intelligence-driven approach to addressing both international and domestic
terrorism-related matters.
The FBI is dedicated to disrupting terrorist plots before they are executed.
Performance Measure: Catastrophic Acts of Terrorism
Note: A catastrophic terrorist act is defined as an act
                                                                                  Catastrophic Acts of

resulting in significant loss of life and/or significant                               Terrorism

property damage (e.g., each of the individual attacks
that took place on September 11, 2001, the attack on
the Alfred P. Murrah Federal Building in Oklahoma                  4
City on April 19, 1995).
                                                                   3
        FY 2002 Actual Performance: 0
                                                                   2
        FY 2003 Actual Performance: 0
                                                                   1
        FY 2004 Actual Performance: 0                                    0    0    0     0    0     0     0      0    0 00
                                                                   0
        FY 2005 Actual Performance: 0                                  FY02       FY04       FY06       FY08         FY10

        FY 2006 Actual Performance: 0                                                  Actuals          Target
                                                             Data Definitions: Terrorist Acts, domestic or internationally-
        FY 2007 Actual Performance: 0                        based, count separate incidents that involve the “unlawful use of
                                                             force and violence against persons or property to intimidate or
        FY 2008 Actual Performance: 0                        coerce a government, the civilian population, or any segment
                                                             thereof, in fur herance of political or social objectives.” (28
        FY 2009 Actual Performance: 0                        C.F.R. Section 0.85). For the purposes of this performance
                                                             measure, a catastrophic terrorist act is defined as an act
                                                             resulting in significant loss of life and/or significant property
        FY 2010 Actual Performance: 0                        damage.

        FY 2011 Target:                    0                 Data Collection and Storage: The reported numbers were
                                                             compiled through the expert knowledge of FBI CT senior
                                                             management at headquarters.
        FY 2011 Actual Performance: 0
                                                             Data Validation and Verification: All data has been approved
Discussion of FY 2011 Results: The FBI has achieved          and validated by subject matter experts and executives in the
                                                             FBI’s CTD.
its target of zero catastrophic terrorist acts for this
                                                             Data Limitations: The decision to count or discount an incident
measure for FY 2011 and will continue its efforts to         as a terrorist act, according to the above definition, is subject to
keep the American people safe from terrorism.                change based upon the latest available intelligence information
                                                             and the opinion of program managers. In addition, acts of
                                                             terrorism, by their nature, are impossible to reduce to uniform,
                                                             reliable measures.




Federal Bureau of Investigation                        -8-
                Management’s Discussion and Analysis


STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People 39 percent of the FBI’s Net Cost supports this Goal.

PROGRAM: Criminal Enterprises
Background/Program Objectives: The FBI’s criminal enterprise investigations, managed by the Criminal
Investigative Division at FBI Headquarters, focus on the following types of criminal enterprises.

Organized Criminal Enterprises
Investigative subprograms that focus on criminal enterprises involved in sustained racketeering activities and
that are mainly comprised of ethnic groups with ties to Asia, Africa, the Middle East, and Europe are
consolidated into the Organized Criminal Enterprise Program. Organized criminal enterprise investigations,
through the use of the Racketeering Influenced and Corrupt Organization statute, target the entire entity
responsible for the crime problem. With respect to groups involved in racketeering activities, the FBI
focuses on: the Russian/Eastern European/Eurasian organized crime groups, Asian criminal enterprises, La
Cosa Nostra and Italian organized crime groups, Balkan/Albanian organized crime groups, Middle Eastern
criminal enterprises and African criminal enterprises. Each of these groups is engaged in myriad criminal
activities.
Performance Measure: Organized Criminal Enterprises Dismantled
        FY 2002 Actual Performance: 17
        FY 2003 Actual Performance: 17                                       Organized Criminal

                                                                           Enterprises Dismantled

        FY 2004 Actual Performance: 29
        FY 2005 Actual Performance: 34                    50                                  43          43
                                                                                                   38          39 39 37
                                                          40                           36
        FY 2006 Actual Performance: 36                                            34
                                                                           29
        FY 2007 Actual Performance: 43                    30
                                                                 17   17
        FY 2008 Actual Performance: 38                    20

        FY 2009 Actual Performance: 43                    10

        FY 2010 Revised Performance: 39                    0
                                                               FY02        FY04        FY06        FY08        FY10
        FY 2011 Target:                  37
                                                                                  Actual      Target
        FY 2011 Actual Performance: 39
                                                     Data Definition: Disman lement means destroying the targeted
Discussion of FY 2011 Results: The FBI               organization’s leadership, financial base, and supply network such that the
                                                     organization is incapable of operating and/or reconstituting itself.
achieved its target for this measure in FY 2011.
                                                     Data Collection and Storage: The data source is the FBI's Integrated
                                                     Statistical Reporting and Analysis Application (ISRAA) database that
The FBI’s Transnational Organized Crime              tracks accomplishments from inception to closure.
Program exceeded the target of 37                    Data Validation and Verification: Before data are entered into the
dismantlements through the refinement and            system, they are reviewed and approved by an FBI field manager, and
                                                     subsequen ly verified through inspection. Inspections occur at least once
capitalization of the advantages of intelligence     annually, tracing sampled data to source documents contained in FBI files.
driven investigations. In addition, the FBI          Data Limitations: FBI field personnel are required to enter
increased coordination and intelligence sharing      accomplishment data within 30 days of he accomplishment or a change in
                                                     the status of an accomplishment, such as those resulting from appeals.
with domestic and international law                  Data for this report are compiled less than 30 days after the end of the
enforcement and intelligence agencies. Several       fiscal year, and thus may not fully represent the accomplishments during
                                                     the reporting period.
significant law enforcement actions during FY



Federal Bureau of Investigation                     -9-
                 Management’s Discussion and Analysis


2011 highlighted the effectiveness of these efforts, including the examples listed below.
An Armenian Thief-In-Law (TIL) was successfully prosecuted for racketeering for the first time in the
United States. The Armenian TIL and 72 other members and associates of an Armenian-American organized
crime group were indicted for activities related to more than $163 million in fraudulent Medicare claims.
127 subjects were arrested for racketeering related crimes, including murder and extortion, resulting in the
largest single day operation against La Cosa Nostra.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. Final results will be
reflected in the FY 2013 President’s Budget.

Gangs/Criminal Enterprises
The mission of the FBI’s Gangs/Criminal Enterprise Program is to disrupt and dismantle domestic cells
(local, regional, national, and transnational) of criminal enterprises with ethnic ties to North, Central, and
South America that pose the greatest threats to the economic and national security of the United States. This
is accomplished through the FBI’s Violent Gang and Drug Programs, Major Theft initiatives, increased
involvement in the Organized Crime Drug Enforcement Task Force Program (OCDETF), and support and
leadership of high-intensity drug trafficking area initiatives. In recent years, the FBI has concentrated anti-
gang efforts in the Mara Salvatrucha (MS-13) National Gang Task Force, which develops local, state, federal,
and international investigations of the MS-13 and 18th Street transnational criminal gangs into national and
international investigations and prosecutions.
Performance Measure: Gangs/Criminal
Enterprises Dismantled                                                                Gangs/Criminal

                                                                                   Enterprises Dismantled

Note: These measures do not include Consolidated            300

Priority Organization Target (CPOT)-linked
dismantlements, which are recorded below.                   250


        FY 2002 Actual Performance: 185 
                   200
 185                                                            165
                                                                            138          138          144          135
        FY 2003 Actual Performance: 138 
                   150
                               119                       124
                                                                                  112                       114                       99
        FY 2004 Actual Performance: 112 
                   100


        FY 2005 Actual Performance: 138 
                     50

                                                               0

        FY 2006 Actual Performance: 119 
                            FY02         FY04         FY06         FY08         FY10

        FY 2007 Actual Performance: 144 

                                                                                          Actual      Target
        FY 2008 Actual Performance: 114 
                  Data Definition: Dismantlement means destroying the targeted
                                                           organization’s leadership, financial base, and supply network such that the
        FY 2009 Actual Performance: 135 
                  organization is incapable of operating and/or reconstituting itself.

                                                           Data Collection and Storage: The data source is the FBI's ISRAA
        FY 2010 Revised Performance: 124 
                 database that tracks accomplishments from inception to closure.

        FY 2011 Target:                     99 
           Data Validation and Verification: Before data are entered into the
                                                           system, they are reviewed and approved by an FBI field manager, and
                                                           subsequently verified through inspection. Inspec ions occur at least once
        FY 2011 Actual Performance: 165 
                  annually, tracing sampled data to source documents contained in FBI files.

Discussion of FY 2011 Results: The FBI met and             Data Limitations: FBI field personnel are required to enter
                                                           accomplishment data within 30 days of the accomplishment or a change in
exceeded its target for this measure in FY 2011.           the status, such as those resulting from appeals. Data are compiled less
                                                           than 30 days after the end of the fiscal year, and thus may not fully
                                                           represent the accomplishments during the reporting period.




Federal Bureau of Investigation                       - 10 -
                 Management’s Discussion and Analysis


In FY 2011, the FBI implemented a new Southwest Border Strategy that included the establishment of a
Southwest Border Threat Section in the Criminal Investigative Division. The new section has allowed the
FBI to allocate more resources on the threats along the Southwest Border, including numerous Mexican
Criminal Enterprises.
The FBI is also a partner on the OCDETF Strike Forces. This partnership fosters the intelligence sharing and
coordination necessary to achieve an intelligence-driven, multi-agency strategic enforcement approach to
investigations. The OCDETF Executive Office has established co-located Strike Forces in 11 key cities
around the country. These Strike Forces serve a dual purpose through aggressively targeting CPOT and
high-level trafficking organizations and functioning as a central point of contact for OCDETF agents and
prosecutors nationwide, by gathering intelligence and disseminating investigative leads throughout the
country. The OCDETF Strike Forces synergize drug trafficking investigations by bringing together the
resources and expertise of all of OCDETF's participating investigative agents and prosecutors. By
coordinating these efforts, the participants eliminate superfluous efforts and save valuable resources.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. Final results will be
reflected in the FY 2013 President’s Budget.

Gangs/Criminal Enterprises - CPOT Drug Trafficking Organizations (DTOs)
In FY 2003, DOJ developed a single national list of criminal enterprises engaged in major drug trafficking
and money laundering organizations. This list of targets, the CPOT list, is updated periodically and reflects
the most significant international narcotic suppliers (and related money laundering organizations), poly-drug
traffickers, clandestine drug manufacturers and producers, and major drug transporters supplying the U.S.
The FBI has developed a comprehensive counter-drug strategy designed to investigate and prosecute illegal
drug traffickers and distributors, reduce drug related crime and violence, provide assistance to other law
enforcement agencies, and strengthen international cooperation. The strategy focuses the FBI's counter-drug
resources on identified CPOT organizations associated primarily with Colombian, Mexican, and Caribbean
drug trafficking organizations with the most adverse impact on U.S. national interests.




Federal Bureau of Investigation                       - 11 -
                 Management’s Discussion and Analysis


Performance Measure: CPOT-linked DTOs
Dismantled
                                                                             CPOT-linked DTOs Dismantled
        *FY 2002 Actual Performance: 16
        FY 2003 Actual Performance: 15                     25                                                           22
                                                                                                            20
                                                           20                       18               18
        FY 2004 Actual Performance: 12                           16                      17
                                                                                                15                           15
                                                                        15
                                                           15                 12                                 12
        FY 2005 Actual Performance: 18
                                                           10
        FY 2006 Actual Performance: 17
                                                            5
        FY 2007 Actual Performance: 15
                                                            0
                                                                 FY02        FY04        FY06        FY08        FY10
        FY 2008 Actual Performance: 18
        FY 2009 Actual Performance: 20                                              Actual      Target

        FY 2010 Revised Performance: 12                 Data Definition: Disman lement means destroying the organization’s
                                                        leadership, financial base, and supply network such that the organization
        FY 2011 Target:                    15           is incapable of operating and/or reconstituting itself.
                                                        Data Collection and Storage: The data source is the FBI's ISRAA
        FY 2011 Actual Performance: 22                  database that tracks accomplishments from inception to closure.

* Note: The FBI tracked disruptions/	                   Data Validation and Verification: Data are reviewed and approved by
                                                        an FBI field manager, and subsequently verified through inspection.
dismantlements through its National Priority	           Inspections occur at least annually, tracing sampled data to source
Target List before the CPOT list prioritized            documents in FBI files. In addition, program managers at FBI HQ verify
                                                        each investigation’s link to an organization on the CPOT list.
DOJ-wide drug efforts in FY 2003.
                                                        Data Limitations: FBI field personnel are required to enter
                                                        accomplishment data within 30 days of he accomplishment or a change
Discussion of FY 2011 Results: The FBI met              in the status, such as those resulting from appeals. Data are compiled
and exceeded its target for this measure in             less than 30 days after the end of the fiscal year, and thus may not fully
                                                        represent the accomplishments during the reporting period.
FY 2011.
In FY 2011, the FBI implemented a new
Southwest Border Strategy that included the establishment of a Southwest Border Threat Section in the
Criminal Investigative Division. The new section has allowed the FBI to allocate more resources on the
threats along the Southwest Border, including numerous Mexican Criminal Enterprises.
The FBI is also a partner on the OCDETF Strike Forces. This partnership fosters the intelligence sharing and
coordination necessary to achieve an intelligence-driven, multi-agency strategic enforcement approach to
investigations. The OCDETF Executive Office has established co-located Strike Forces in 11 key cities
around the country. These Strike Forces serve a dual purpose through aggressively targeting CPOT and
high-level trafficking organizations and functioning as a central point of contact for OCDETF agents and
prosecutors nationwide, by gathering intelligence and disseminating investigative leads throughout the
country. The OCDETF Strike Forces synergize drug trafficking investigations by bringing together the
resources and expertise of all of OCDETF's participating investigative agents and prosecutors. By
coordinating these efforts, the participants eliminate superfluous efforts and save valuable resources.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. Final results will be
reflected in the FY 2013 President’s Budget.




Federal Bureau of Investigation                       - 12 -
                 Management’s Discussion and Analysis


Performance Measure: CPOT-linked DTOs
Disrupted                                                               CPOT-linked DTOs Disrupted
                                                                                                   50                 50
        *FY 2002 Actual Performance: 30                  50                                   45
                                                                      41
                                                                                                               40
        FY 2003 Actual Performance: 41                   40
                                                                                       36                 35
                                                                30                                                     30
        FY 2004 Actual Performance: 27                                      27
                                                         30                       25

        FY 2005 Actual Performance: 25                   20
        FY 2006 Actual Performance: 36                   10
        FY 2007 Actual Performance: 45                    0
                                                               FY02        FY04        FY06        FY08        FY10
        FY 2008 Actual Performance: 50
                                                                                    Actual     Target
        FY 2009 Actual Performance: 35
                                                      Data Definition: Disruption means impeding the normal and effective
                                                      operation of the targeted organization, as indicated by changes in
        FY 2010 Revised Performance: 40               organizational leadership and/or changes in methods of operation,
                                                      including, for example, financing, trafficking patterns, communications or
        FY 2011 Target:                    30         drug production.

        FY 2011 Actual Performance: 50                Data Collection and Storage: The data source is the FBI's ISRAA
                                                      database that tracks accomplishments from inception to closure.
* Note: The FBI tracked disruptions/	                 Data Validation and Verification: Data are reviewed and approved by an
                                                      FBI field manager, and subsequently verified through inspection.
dismantlements through its National Priority          Inspections occur at least annually, tracing sampled data to source
Target List before the CPOT list prioritized          documents in FBI files. In addition, program managers at FBI HQ verify
                                                      each investigation’s link to an organization on the CPOT list.
DOJ-wide drug efforts in FY 2003.
                                                      Data Limitations: FBI field personnel are required to enter
Discussion of FY 2011 Results: The FBI met            accomplishment data within 30 days of he accomplishment or a change in
                                                      the status, such as those resulting from appeals. Data are compiled less
and exceeded its target for this measure in           than 30 days after the end of the fiscal year, and thus may not fully
FY 2011.                                              represent the accomplishments during the reporting period.


In FY 2011, the FBI implemented a new
Southwest Border Strategy that included the establishment of a Southwest Border Threat Section in the
Criminal Investigative Division. The new section has allowed the FBI to allocate more resources on the
threats along the Southwest Border, including numerous Mexican Criminal Enterprises.
The FBI is also a partner on the OCDETF Strike Forces. This partnership fosters the intelligence sharing and
coordination necessary to achieve an intelligence-driven, multi-agency strategic enforcement approach to
investigations. The OCDETF Executive Office has established co-located Strike Forces in 11 key cities
around the country. These Strike Forces serve a dual purpose through aggressively targeting CPOT and
high-level trafficking organizations and functioning as a central point of contact for OCDETF agents and
prosecutors nationwide, by gathering intelligence and disseminating investigative leads throughout the
country. The OCDETF Strike Forces synergize drug trafficking investigations by bringing together the
resources and expertise of all of OCDETF's participating investigative agents and prosecutors. By
coordinating these efforts, the participants eliminate superfluous efforts and save valuable resources.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. Final results will be
reflected in the FY 2013 President’s Budget.




Federal Bureau of Investigation                       - 13 -
                Management’s Discussion and Analysis


PROGRAM: White-Collar Crime
Background/Program Objectives: Through the White-Collar Crime (WCC) Program, the FBI investigates
criminals and criminal enterprises that seek illicit gains through fraud and guile. Illegal activities
investigated include corporate, health care, securities and commodities, financial institution, mortgage,
government (defense procurement and other areas), insurance, mass marketing, and bankruptcy fraud;
environmental crimes; and money laundering.
U.S. citizens and businesses lose billions of dollars each year to criminals engaged in non-violent fraudulent
enterprises. The globalization of economic and financial systems, technological advances, declining
corporate and individual ethics, and the sophistication of criminal organizations have resulted in annual
increases in the number of illegal acts characterized by deceit, concealment, or violations of trust. These
crimes contribute to a loss of confidence in financial institutions, public institutions, and industry.
Performance Measure: Number of Criminal
Enterprises Engaging in White-Collar Crimes                  Number of Criminal Enterprises Engaging in
Dismantled.                                                      White-Collar Crimes Dismantled
                                                                                                      340
        FY 2002 Actual Performance: 49                       350                                  309
                                                             300                     277      250       250
        FY 2003 Actual Performance: 73                       250
                                                                                 231
                                                                                          211
        FY 2004 Actual Performance: 137                      200
                                                                        137
                                                                            163
                                                             150
        FY 2005 Actual Performance: 163                      100 49
                                                                     73

        FY 2006 Actual Performance: 231                       50
                                                               0
        FY 2007 Actual Performance: 277                          FY02   FY04    FY06               FY08       FY10

        FY 2008 Actual Performance: 211
                                                                                  Actual       Target
        FY 2009 Actual Performance: 250
                                                     Data Definition: Disman lement means destroying the organization’s
                                                     leadership, financial base, and supply network such that the organization
        FY 2010 Actual Performance: 309              is incapable of operating and/or reconstituting itself.

        FY 2011 Target:                  250 	       Data Collection and Storage: The data source is the FBI's ISRAA
                                                     database that tracks accomplishments from inception to closure.
        FY 2011 Actual Performance: 340              Data Validation and Verification: Before data are entered into the
                                                     system, they are reviewed and approved by an FBI field manager, and
Discussion of FY 2011 Results: The FBI met           subsequen ly verified through inspection. Inspections occur at least once
and exceeded its target for this measure in          annually, tracing sampled data to source documents contained in FBI files.

FY 2011.	                                            Data Limitations: FBI field personnel are required to enter
                                                     accomplishment data within 30 days of he accomplishment or a change in
                                                     the status, such as those resulting from appeals. Data are compiled less
The FBI’s success in meeting this target was         than 30 days after the end of the fiscal year, and thus may not fully
largely due to an increase in the number of          represent the accomplishments during the reporting period.
agents focusing on WCC. In addition, the FBI
has developed efficiencies through proactive
investigative techniques and technological advances used to address various WCC threats.
For example, in relation to Corporate and Securities Fraud, the utilization of Group I Undercover Operations
increased from 8 to 11, an increase of 38 percent. These increases, along with advances in the utilization of
Title IIIs and other advanced techniques not historically commonly utilized in WCC cases, resulted in
significant progress against crime problems such as Insider Trading, as exemplified by the recent conviction
and sentencing of Raj Rajaratnam, former founder of hedge fund Galleon Group.




Federal Bureau of Investigation                    - 14 -
                 Management’s Discussion and Analysis


In addition, in FY 2011, the FBI was successful at investigating Investment Fraud, as a strong emphasis was
placed on this problem through the national “Operation Broken Trust” initiative organized by the Financial
Fraud Enforcement Task Force. This initiative was the largest sweep pertaining to investment fraud in U.S.
history. Due in part to this initiative and advances in proactive investigations, the FBI obtained the most
convictions in the history of its Corporate and Securities Fraud programs.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. Final results will be
reflected in the FY 2013 President’s Budget.

PROGRAM: Innocent Images National Initiative
Background/Program Objectives: Facilitating crimes against children through the use of the Internet is a
national crime problem that is growing dramatically. The Innocent Images National Initiative (IINI), a
component of the FBI's Cyber Crimes Program, is an intelligence-driven, proactive, multi-agency
investigative initiative that combats the proliferation of child pornography and/or child sexual exploitation
facilitated by online computers. The mission of the IINI is to:
    •	 Identify, investigate, and prosecute sexual predators who use the Internet and other online services to
       sexually exploit children;
    •	 Identify and rescue child victims; and                                   Number of Children Depicted in Child
                                                                                 Pornography Identified by the FBI
    •	 Establish a law enforcement presence on the Internet                                                         246
     240
       as a deterrent to subjects who seek to exploit children.          250

                                                                                                  187
Performance Measure: Number of Children Depicted in                      200
                                                                                                                                   140
Child Pornography Identified by the FBI                                  150                               118
        FY 2002 Actual Performance: Not Available                        100              73
                                                                           50    37
        FY 2003 Actual Performance: Not Available
                                                                            0
        FY 2004 Actual Performance: Not Available                                FY06     FY07     FY08    FY09     FY10     FY11

        FY 2005 Actual Performance: Not Available                                              Actual      Target

        FY 2006 Actual Performance: 37 	                              Data Definition: These data record the number of children
                                                                      found in child pornography materials who have their identities
                                                                      determined as a result of FBI child pornography investigations.
        FY 2007 Actual Performance: 73
                                                                      Data Collection and Storage: Data are collected and stored
        FY 2008 Actual Performance: 187                               in a database at the NCMEC. Subsequent analysis of these
                                                                      data is reported in communications stored in the FBI's
        FY 2009 Actual Performance: 118                               Automated Case Support (ACS) system.
                                                                      Data Validation and Verification: Law enforcement
        FY 2010 Actual Performance: 246                               personnel nationwide are required to submit data on child
                                                                      pornography materials and victims to the CVIP, managed by
        FY 2011 Target:                    140 	                      FBI Cyber Division personnel assigned to the NCMEC.
                                                                      Submissions of child pornography material must include a law
        FY 2011 Actual Performance: 240                               enforcement point-of-contact, who will be willing to testify as to
                                                                      the identity of the child in any investigation. As inves igations
                                                                      identify specific children within submitted materials, they are
Discussion of FY 2011 Results: The FBI significantly                  listed in electronic communications (ECs) reported in the FBI's
surpassed its target for this measure.                                ACS system.

                                                                      Data Limitations: Historical data (prior to FY 2008) for this
The FBI continues its collaboration with the National Center          measure had to be retrieved from a manual count of identified
for Missing & Exploited Children’s (NCMEC) Child Victim               victims in ECs during the years reviewed.
Identification Program (CVIP), CyberTipline, the Innocent



Federal Bureau of Investigation                       - 15 -
                 Management’s Discussion and Analysis


Images International Task Force, the Endangered Child Alert Program, and other related efforts.
A major contributor to IINI’s FY 2011 performance is IINI’s presence at NCMEC. Currently, IINI details
three employees to NCMEC. For example, an actionable lead relayed to the Jacksonville Field Office in late
FY 2010 from a NCMEC CyberTipline Report has led to the identification of 44 child victims to date.
As stated in the data limitations, it should be noted that there is a potential lag in the reporting of the data for
this measure, meaning that the final result may ultimately vary from this report. Final results will be
reflected in the FY 2013 President’s Budget.

PROGRAM: Internet Fraud
Background/Program Objectives: Internet fraud is any scam that uses one or more components of the
Internet to present fraudulent solicitations to prospective victims, conduct fraudulent transactions, or transmit
the proceeds of fraud to financial institutions or others that are connected to the scheme. Identity theft,
Internet auction fraud, and unauthorized electronic funds transfers are problems that plague millions of U.S.
victims.
The FBI and the National White Collar Crime Center
partnered in May 2000 to support the Internet Crime
Complaint Center (IC3). For victims of Internet crime, the                        Number of High-Impact Internet Fraud
IC3 provides a convenient way to alert authorities of a                                   Targets Neutralized
suspected violation. For law enforcement and regulatory                                                             13
agencies, the IC3 offers a central repository for complaints              14                                  11          12
                                                                                                       11                      11
                                                                          12               10                                       10
related to Internet crime, uses the information to quantify               10
                                                                                                   9
patterns, and provides timely statistical data of current trends.          8           7
                                                                                 5
In addition, the FBI uses synchronized, nationwide takedowns               6
                                                                           4
(i.e., arrests, seizures, search warrants, and indictments) to             2
target the most significant perpetrators of on-line schemes.               0
                                                                               FY03        FY05        FY07        FY09        FY11
Performance Measure: Number of High-Impact Internet
Fraud Targets Neutralized                                                                         Actual      Target
                                                                       Data Definition: Case data are reviewed by the IC3 staff to
        FY 2002 Actual Performance: Not Available	                     determine if investiga ive targets meet certain “high impact”
                                                                       criteria: Total loss amount greater than $100,000; international
        FY 2003 Actual Performance: 5                                  nexus; White-Collar Crime-related fraud; Money Laundering
                                                                       scheme; Pharmaceutical Fraud; Phishing; Attack/Identity Theft;
                                                                       and High volume of victims. The IC3 evaluates and tracks the
        FY 2004 Actual Performance: 7                                  progress of investigations meeting these criteria throughout the
                                                                       year.
        FY 2005 Actual Performance: 10
                                                                       Data Collection and Storage: The data source is a record
                                                                       system maintained by the IC3. The list of targets is updated
        FY 2006 Actual Performance: 9                                  each year.

        FY 2007 Actual Performance: 11 	                               Data Validation and Verification: Targets are determined by
                                                                       subject matter expert teams at the IC3 and approved by the
                                                                       Unit Chief. IC3 staff maintains the list and determines when a
        FY 2008 Actual Performance: 11                                 target has been the subject of an action.

        FY 2009 Actual Performance: 13 	                               Data Limitations: There are no requirements for the IC3 to
                                                                       receive feedback from FBI field offices or state and local law
        FY 2010 Actual Performance: 12                                 enforcement regarding neutralizations that were a result of IC3
                                                                       case referrals. Due to this lack of feedback, the IC3 may
                                                                       underreport the number of neutralizations.
        FY 2011 Target:                    10
        FY 2011 Actual Performance: 11
Note: FY 2003-2006 data were recorded as the measure “Number of Top-Ten Internet Targets Neutralized.”



Federal Bureau of Investigation                       - 16 -
                Management’s Discussion and Analysis


Discussion of FY 2011 Results: The FBI’s actual performance in FY 2011 fell slightly from prior years, but
was still above the target.


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
Federal Managers’ Financial Integrity Act of 1982
The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the statutory basis
for management’s responsibility for and assessment of internal accounting and administrative controls. Such
controls include program, operational, and administrative areas, as well as accounting and financial
management. The Integrity Act requires federal agencies to establish controls that reasonably ensure
obligations and costs are in compliance with applicable law; funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and revenues and expenditures are properly
recorded and accounted for to maintain accountability over the assets. The Integrity Act also requires
agencies to annually assess and report on the internal controls that protect the integrity of federal programs
(FMFIA Section 2) and whether financial management systems conform to related requirements (FMFIA
Section 4).
Internal Controls Program
Management of the FBI is responsible for establishing and maintaining effective internal controls and
financial management systems that meet the objectives of the FMFIA. In accordance with OMB Circular
A-123, Management’s Responsibility for Internal Control, the FBI conducted its annual assessment of the
effectiveness of internal controls to support effective and efficient programmatic operations, reliable
financial reporting, and compliance with applicable laws and regulations (FMFIA Section 2). The FBI also
assessed whether its financial management systems conform to financial systems requirements (FMFIA
Section 4). Based on the results of the assessments, the FBI provided reasonable assurance that its internal
controls and financial management systems met the objectives of the FMFIA, with the exception of the
reportable conditions and nonconformances summarized below. Corrective Action Plans were established to
institute programs and/or controls to eliminate these conditions.
FMFIA Section 2 – Reportable Conditions
The FBI designated two items under Section 2 as reportable conditions:
•	 National Security Letters (NSLs): In March 2007, the Office of the Inspector General (OIG) reported that
   the FBI’s use of NSLs grew dramatically and shifted in focus since the enactment of the Patriot Act and
   that NSLs served as an indispensable investigative tool. The OIG found issues with the FBI’s tracking,
   reporting, and guidance regarding NSL usage. A March 2008 follow-up review assessed the FBI’s
   corrective actions and indicated the FBI and Department had made significant progress in implementing
   the 2007 recommendations. Improvements included strengthening the controls and automated workflow
   governing the request, review, and approval of NSLs; field office monthly reconciliations of NSL usage;
   and improving the database used to track NSL use. The FBI's actions to remediate the March 2007 OIG
   findings were completed by June 2007 and validated prior to December 31, 2008. The FBI agreed to
   each of the recommendations proposed in the 2008 report and implemented the proposed changes where
   appropriate. Several of the recommendations, however, were rendered moot by the FBI’s
   implementation of the NSL Subsystem. The FBI continues to dedicate personnel and resources to ensure
   appropriate use of NSLs.
•	 Management of the Sentinel Program: The Government Accountability Office (GAO) audited the FBI’s
   delivery of the Sentinel Program during FY 2007, to evaluate the FBI’s use of effective acquisition
   practices and the basis for estimating schedule and costs. Based on the report, the FBI is managing the


Federal Bureau of Investigation                    - 17 -
                Management’s Discussion and Analysis


    Sentinel program in accordance with many approved key system acquisition best practices and has
    established several successful processes for identifying and mitigating associated risks. The GAO also
    found the FBI was not in accordance with best practices concerning overseeing contractors, and the
    process to formulate the program’s schedule and cost estimates did not adhere to governmental best
    practices. The FBI completed remediation and provided additional information to GAO in 2010. The
    recommendation remains open as the FBI works actively with GAO to ensure the FBI is using best
    practices in different approaches for development (e.g., agile development).
FMFIA Section 4 – Nonconformances
The FBI provided reasonable assurance that its internal control over financial management systems was
operating effectively, except for three system nonconformances as summarized below:
•	 Financial Systems Compliance: The FBI's Financial Management System (FMS) was inadequate and
   audit reports indicated there were concerns regarding its compliance with financial systems requirements.
   The FBI and the DOJ's Chief Information Officer addressed the most severe findings to minimize
   financial reporting risks until the DOJ Unified Financial Management System (UFMS) is implemented.
•	 Inadequate accountability over the Health Insurance Portability and Accountability Act of 1996 (HIPAA)
   funding of health care fraud investigations: In a response to an April 2005 GAO report, the FBI
   concurred that it did not adequately monitor use of health care fraud investigative resources. Due to the
   limitations of the FMS, the FBI was not in a position to determine whether all transferred funds were
   spent for the purpose provided. The GAO provided four recommendations, two enhancing the FBI's
   accountability over the HIPAA transfers and two augmenting the new UFMS cost-tracking capabilities
   in the long term. Enhancements to the FBI's accountability were completed and the remaining
   recommendations will be completed with the implementation of UFMS.
•	 Management of Confidential Case Funds and Telecommunication Costs: Reviewing cases between 2004
   and 2006, a January 2008 OIG report on the FBI Management of Confidential Case Funds and
   Telecommunication Costs noted that the FBI’s FMS, “lacks the controls necessary to prevent theft and,
   as such, is not an effective financial system for FBI employees to use to account for and approve
   confidential case funds.” The OIG provided 16 recommendations to improve the FBI’s internal financial
   controls related to the tracking, payment, and processing of undercover telecommunications expenses
   and case funds. The FBI initiated actions - many of them independent of the OIG audit - to improve
   processes and provide additional oversight of confidential case funds. All 16 recommendations were
   closed or resolved. The FBI is in a 90-day response cycle to report on progress to close all resolved
   recommendations.
OMB Circular A-123, Appendix A – Internal Control Over Financial Reporting
In FY 2011, the FBI documented and assessed its significant business processes according to the
requirements of DOJ’s Implementation Plan for compliance with OMB Circular A-123, Management’s
Responsibility for Internal Control, revised December 21, 2004. The revised Circular A-123 re-examined
internal control requirements for federal agencies in light of the requirements for publicly-traded companies
implemented by the Sarbanes-Oxley Act of 2002. The full Circular A-123, Appendix A: Internal Control
Over Financial Reporting assessment covered all processes deemed to be significant to the FBI and the
Department of Justice. These processes were: Property Management, Treasury/Fund Balance with Treasury,
Procurement and Payable, Financial Reporting, Human Resources, Revenue/Receivables Management,
Budget/Funds Management, and Information Technology. The results of the assessment indicated no
material weaknesses in the FBI’s internal control over financial reporting as of June 30, 2011.




Federal Bureau of Investigation                   - 18 -
                Management’s Discussion and Analysis


Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve federal
financial and program managers’ accountability, provide better information for decision-making, and
improve the efficiency and effectiveness of federal programs. FFMIA requires agencies to have financial
management systems that substantially comply with federal financial management systems requirements,
applicable federal accounting standards, and the U.S. Standard General Ledger (USSGL) at the transaction
level. Furthermore, the Act requires independent auditors to report on agency compliance with the three
requirements in the financial statement audit report. The Federal Information Security Management Act
states that to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.
FFMIA Compliance Determination
During FY 2011, the FBI performed a self-assessment, and documented several areas in which its key
financial management systems, principally FMS, have a moderate risk of not providing reliable and
consistent information for decision-making. As a result, the FBI reported several instances in which its key
financial management systems do not comply with certain provisions of FFMIA.
•	 Federal Financial Management System Requirements: The FBI relies upon several systems to provide
   financial information that is necessary to support their financial management needs. These systems,
   other than the FMS, include the Property Management Application, Vehicle Management Application,
   the Fixed Assets module of FMS, and the Reimbursable Agreement Management System. The FBI’s
   core financial systems are not integrated through a common database or interfaced electronically to meet
   data and processing requirements.
•	 Transactions Entered at the Standard General Ledger Level: The FBI’s financial management systems
   are not currently configured to use the USSGL at the transaction level. Specifically, certain transactions
   are processed outside of the FBI’s core financial accounting system, but are not recorded at the
   transaction level using the USSGL. These transactions must be modified when recorded into the core
   financial accounting system through a manual or automated batch transaction process.
Legal Compliance
Except as discussed above, the FBI is not aware of any additional instances of material noncompliance with
laws or regulations identified in OMB guidance, or with any laws or regulations that have a direct and
material effect on the FBI’s financial statements.
POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS
Factors and Future Trends Affecting Federal Bureau of Investigation Programs’ Goal Achievement
The Changing Threat
Over the past decade, the FBI has moved aggressively to implement a comprehensive plan that has
fundamentally transformed the FBI. The FBI has overhauled its counterterrorism operations, expanded its
intelligence capabilities, modernized its business practices and technology, and improved coordination with
its partners. However, the U.S. continues to face significant challenges to national security from increasingly
sophisticated internal and external threats. In addition to well-funded and established terrorist organizations
such as al-Qa’ida, the U.S. faces WMD, foreign intelligence, cyber, and domestic concerns, including
substantial increases in areas such as violent crimes in Indian Country. Significant and exponential advances
in U.S. and global technological markets over the past few years have increased the risk of the FBI’s
technical capabilities falling significantly behind those of our adversaries. To avert this risk, the FBI must
take strategic measures to maintain pace with rapid and complex technology expansion.



Federal Bureau of Investigation                    - 19 -
                Management’s Discussion and Analysis


The FBI must protect the U.S. and its citizens from all new and on-going foreign and domestic threats. As it
executes its mission, the FBI continues to make major investments in personnel, technology, and material
needed to maintain its security and law enforcement capabilities, and to expand these capabilities to
anticipate new and evolving threats to national and personal security.
Constrained Budget Environment
The FBI, along with the rest of the federal government, will face austere budget constraints in FY 2012 and
for the foreseeable future. Due to the high national debt and the overall state of the economy, federal
spending is being closely scrutinized. Oversight entities, to include Congress and the White House, are
analyzing federal budgets to identify redundancies, inefficiencies, and programs that can be reduced or
eliminated. Furthermore, they are leading efforts to find cost savings. The DOJ has implemented a number
of measures to monitor and curb component spending, to include a prohibition on unnecessary expenses and
a rigorous conference approval process. The FBI must adapt to flat-lined or declining budgets by looking for
areas to reduce spending and increase efficiencies while maintaining its high operational tempo in mission-
critical areas. The FBI will work with DOJ and other oversight entities to mitigate any potentially negative
effects that may result from the constrained budget environment.
Strategy Management System (SMS)
The FBI’s SMS is based upon a widely utilized strategy system known as the Balanced Scorecard. In 2006,
the FBI began using the Balanced Scorecard methodology to manage strategy execution. SMS guides the
FBI enterprise’s efforts to meet 25 strategic objectives.
SMS is used to help drive budget, inspection, and accountability. In 2008, the FBI began to more closely
align its current spending and budget projections with its strategy by incorporating SMS in the FBI’s spend
plan process. Spend plan review meetings examine division resource allotments to initiatives and objectives
to ensure personnel and nonpersonnel resources align with strategic priorities. This enhances decision-
making during budget formulation and execution, identifying areas of emphasis for resources that align with
the SMS. SMS is also linked to inspections and employee performance evaluations.
Transitioning Financial Systems
Beginning in October 2010 the FBI implemented a programmatic funds control and tracking architecture into
its financial system. This successful implementation is significantly aiding the FBI as it develops the
requirements and configuration framework for transition to the DOJ’s UFMS.
Unified Financial Management System (UFMS)
The FBI kicked off its UFMS implementation on November 15, 2010, anticipating enterprise-wide
deployment in FY 2014. Since then, the FBI established and staffed its UFMS Project Management Office
with seven full time personnel and established the FBI UFMS Project Team site at the Financial Systems
Implementation office facility in McLean, Virginia. The UFMS Project Team documented and validated
current business process environment through 20 facilitated “as is” working sessions; identified 13 FBI
specific business processes through 45 gap analysis and gap review working sessions; completed 18
requirement gathering sessions used to identify and validate the FBI’s system requirements; documented and
verified the FBI UFMS future business processes through 29 facilitated “to be” working sessions; and, held
15 UFMS familiarization sessions and demonstrations to help users become more familiar with the UFMS
functionality. The FBI is preparing for the installation of the secret instance of UFMS. A memorandum of
understanding between the DOJ and the FBI to implement UFMS in the secret environment was signed on
September 12, 2011.




Federal Bureau of Investigation                   - 20 -
                Management’s Discussion and Analysis


Supply Chain Management (SCM) – Maximo
In May 2010, the FBI initiated procurement for enhanced SCM technology to modernize asset tracking and
reporting, anticipating enterprise-wide deployment in FY 2012. SCM Phase I efforts began in November
2010 with selection of a vendor to assist the FBI transition to a consolidated SCM system. IBM's Maximo
platform solution was selected to replace legacy system technology with an enterprise-wide asset tracking
solution that will manage nearly 600,000 FBI assets. The SCM solution improves functionality and
consolidates four legacy systems, unifying asset management processes that historically have been separated.
In general, this new solution will improve the accuracy of current inventory processes and control, reduce
administrative workload associated with manual inventory processes, and provide a scalable system that can
be integrated with future system upgrades.
Records Management Division (RMD) User Fee Collections for National Name Check Program
The FBI’s RMD completed its User Fee Study which updated the fee structure of the National Name Check
Program (NNCP). Consistent with guidance in OMB Circular A-25, the FBI evaluates user fee structures
every two years, or as prompted by major program changes. The NNCP eliminated a substantial backlog and
achieved steady state for all customers in FY 2009. The new fee structure, which became effective March 4,
2011, updated previously outdated salary information and eliminated the incentive for expedited name check
requests. The recovery of these costs will allow the NNCP to remain at steady state. In addition, the NNCP
will incur significant costs as it continues to implement improvements in information technology to improve
the efficiency and effectiveness of the NNCP.
IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT IMPLEMENTATION
In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, and the Departmental guidance for implementing the Improper
Payments Elimination and Recovery Act (IPERA), the Department implemented a top-down approach to
assess the risk of significant improper payments across all five of the Department’s mission-aligned
programs, and to identify and recapture improper payments through a payment recapture audit program. The
approach promotes consistency across the Department and enhances internal control related to preventing,
detecting, and recovering improper payments. Because of the OMB requirement to assess risk and report
payment recapture audit activities by agency programs, the results of the Department’s risk assessment and
recapture activities are reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, the FBI assessed its activities for
susceptibility to significant improper payments. The FBI also conducted its payment recapture audit
program in accordance with the Departmental approach. The FBI provided the results of both the risk
assessment and payment recapture audit activities to the Department for the Department-level reporting in
the FY 2011 Performance and Accountability Report.
LIMITATIONS OF THE FINANCIAL STATEMENTS
•	 The financial statements have been prepared to report the financial position and results of operations of
   the FBI, pursuant to the requirements of 31 U.S.C. 3515(b).
•	 While the statements have been prepared from the books and records of the FBI in accordance with U.S.
   generally accepted accounting principles for federal entities and the formats prescribed by OMB, the
   statements are in addition to the financial reports used to monitor and control budgetary resources which
   are prepared from the same books and records.




Federal Bureau of Investigation                    - 21 -
                Management’s Discussion and Analysis


•   The statements should be read with the realization that they are for a component of the U.S. Government,
    a sovereign entity.




Federal Bureau of Investigation                   - 22 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     INDEPENDENT AUDITORS’ REPORTS




                 - 23 -
This page intentionally left blank. 





           - 24 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Acting Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Federal
Bureau of Investigation (FBI) as of September 30, 2011 and 2010, and the related consolidated statements
of net cost and changes in net position, and the combined statements of budgetary resources (hereinafter
referred to as “consolidated financial statements”) for the years then ended. These consolidated financial
statements are the responsibility of the FBI’s management. Our responsibility is to express an opinion on
these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the FBI’s internal control over financial reporting. Accordingly, we express no such opinion. An audit
also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
consolidated financial statements, assessing the accounting principles used and significant estimates made
by management, as well as evaluating the overall consolidated financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of Justice Federal Bureau of Investigation as of
September 30, 2011 and 2010, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.

                                                      - 25 -
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Financial Statements
Page 2




In accordance with Government Auditing Standards, we have also issued our reports dated November 4,
2011, on our consideration of the FBI’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 4, 2011




                                               - 26 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Acting Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Investigation (FBI) as of September 30, 2011 and 2010, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 4, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of the FBI is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered the FBI’s internal control over financial
reporting by obtaining an understanding of the FBI’s internal control, determining whether internal
controls had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the FBI’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of the
FBI’s internal control over financial reporting. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.
                                                       - 27 -
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 2




The Exhibit presents the status of the prior year’s finding and recommendation.

This report is intended solely for the information and use of the FBI’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 4, 2011




                                              - 28 -
Independent Auditors’ Report on Internal Control over Financial Reporting
Page 3

                                                                                                                  EXHIBIT



                  STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATION

As required by Government Auditing Standards issued by the Comptroller General of the United States,
and by OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we
have reviewed the status of the prior year’s finding and recommendation. The following table provides our
assessment of the progress the FBI has made in correcting the previously identified significant deficiency.
We also provide the Office of the Inspector General report number where the deficiency was reported, our
recommendation for improvement, and the status of the recommendation as of the end of fiscal year 2011:


                    Significant
      Report                                               Recommendation                                   Status
                     Deficiency
    Annual        Weaknesses            Recommendation No. 1: Ensure that the recent                     Completed 1
    Financial     Exist in              updates to the certification, accreditation, and
    Statements    Information           security assessment processes are fully
    Fiscal Year   Systems               implemented and effectively address the
    2010,         Controls              identified deficiency.
    Report No.
    11-07




1
  Sufficient progress has been made in addressing this finding and the related recommendation such that the remaining risk of
misstatement no longer merits the attention by those charged with governance. Therefore, the condition has been downgraded to a
deficiency in internal control.


                                                      - 29 -
This page intentionally left blank. 





           - 30 -
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Acting Inspector General
U.S. Department of Justice


Director
Federal Bureau of Investigation
U.S. Department of Justice


We have audited the consolidated balance sheets of the U.S. Department of Justice Federal Bureau of
Investigation (FBI) as of September 30, 2011 and 2010, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 4, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of the FBI is responsible for complying with laws, regulations, and contracts applicable
to the FBI. As part of obtaining reasonable assurance about whether the FBI’s fiscal year 2011
consolidated financial statements are free of material misstatement, we performed tests of the FBI’s
compliance with certain provisions of laws, regulations, and contracts, noncompliance with which could
have a direct and material effect on the determination of the consolidated financial statement amounts, and
certain provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the
provisions referred to in Section 803(a) of the Federal Financial Management Improvement Act of 1996
(FFMIA). We limited our tests of compliance to the provisions described in the preceding sentence, and
we did not test compliance with all laws, regulations, and contracts applicable to the FBI. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed instances, described in the Exhibit, where the FBI’s financial
management systems did not substantially comply with Federal financial management system requirements
because of the lack of a unified, integrated financial management system.

                                                      - 31 -
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Independent Auditors’ Report on Compliance and Other Matters
Page 2




The FBI’s financial management systems also do not permit application of the U.S. Government Standard
General Ledger at the transaction level. Specifically, certain transactions are processed outside of the
FBI’s core financial accounting system, but are not recorded at the transaction level using the U.S.
Government Standard General Ledger. These transactions must be modified when recorded into the core
financial accounting system through a manual or automated batch transaction process.

The results of our tests of FFMIA disclosed no instances in which the FBI’s financial management systems
did not substantially comply with applicable Federal accounting standards.

The FBI’s response to the instances of noncompliance identified in our audit is presented in the Exhibit.
We did not audit the FBI’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of the FBI’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 4, 2011




                                             - 32 -
Independent Auditors’ Report on Compliance and Other Matters
Page 3

                                                                                                EXHIBIT



                                INSTANCES OF NONCOMPLIANCE

This section contains our discussion of the instances of noncompliance with laws, regulations, and
contracts that we noted during our fiscal year 2011 audit.

Federal Financial Management Improvement Act of 1996 (FFMIA)

We noted that the U.S. Department of Justice Federal Bureau of Investigation’s (FBI) key financial
application, the Financial Management System (FMS), and other financial management systems do not
substantially comply with some categories of FFMIA requirements listed in Office of Management and
Budget (OMB) Circular No. A-127, Financial Management Systems, dated January 9, 2009. Specifically,
we noted deficiencies in the following categories:

•	 Federal Financial Management System Requirements: Many of the FBI’s financial management
   systems pre-date the existing applicable functional requirements for the design, development,
   operation, and maintenance of financial management systems. As a result, these financial management
   systems do not comply with all functional requirements included in OMB circulars and bulletins, and
   the U.S. Department of the Treasury’s Treasury Financial Manual.
   The FBI relies upon several systems to provide financial information that is necessary to support the
   FBI’s financial management needs. These systems, other than the general ledger module of FMS, used
   by the FBI during fiscal year 2011, include the Available Funds File (AFF), the Procurement Module
   of FMS, the Enterprise Process Automation System (EPAS), the Property Management Application
   (PMA), the Vehicle Management Application (VMA), the Fixed Assets module of FMS (FA), and the
   Reimbursable Agreement Management System (RAMS). The FBI’s financial management systems are
   not considered unified because the FMS’ general ledger, certain modules of the FMS, and the other
   systems are not planned for together, are not managed together, do not operate in an integrated fashion,
   and are not linked together electronically in an efficient and effective manner to provide the agency-
   wide financial system support necessary to carry out the agency's mission and support the agency's
   financial management needs.
   For example, property acquisitions must be recorded manually into both the FMS and PMA, and then
   depreciation information must be calculated in the FAS and recorded into the FMS for financial
   statement and internal reporting purposes. Additionally, FMS is unable to capture all open obligations
   causing a variance between the population of undelivered orders from the Procurement Module of FMS
   and the general ledger of the FMS.
   Further, certain modules within the FMS and other systems, such as the VMA and the PMA, do not
   have historical reporting capabilities to meet the data and processing requirements of the FBI.
•	 Application of the U.S. Government Standard General Ledger at the Transaction Level: Certain
   transactions are processed outside of the FBI’s core financial accounting system, but are not recorded
   at the transaction level using the U.S. Government Standard General Ledger. These transactions must
   be modified when recorded into the core financial accounting system through a manual or automated
   batch transaction process.

                                             - 33 -
Independent Auditors’ Report on Compliance and Other Matters
Page 4




Due to the issues noted above, the FBI’s financial statements have the potential to be misstated. As a
result, the personnel involved in preparing the financial statements and other financial reports have been
required to maintain numerous manual and automated processes in order to compensate for the controls and
reporting abilities that are lacking in the FBI’s financial management systems.

We make no recommendation corresponding with the instance of FFMIA noncompliance because the FBI
has stated that it will be migrating to the Department of Justice Unified Financial Management System, and
costs to correct the FFMIA deficiencies in the current accounting system are not justified.

Management Response:

The FBI concurs with the finding. To resolve this finding, the FBI has made an absolute commitment to
implement the Department of Justice (DOJ) Unified Financial Management System (UFMS). Since 2002,
DOJ has been leading the effort to implement a department-wide financial and procurement management
system that will enhance current and future financial management and procurement operations and
standardize many business practices. DOJ is addressing these needs through implementation of UFMS, an
integrated commercial-off-the-shelf application that will replace the FBI’s current Financial Management
System (FMS) and legacy financial management and procurement systems throughout the Department.
UFMS will fully implement all current federal financial management system requirements and applicable
federal accounting standards, including recording all transactions at the USSGL level. As of FY 2011,
DOJ has successfully implemented UFMS at the Drug Enforcement Administration and the Bureau of
Alcohol, Tobacco, Firearms and Explosives.
Initial planning for the FBI implementation of UFMS was completed by the DOJ UFMS program
management office, in conjunction with its Implementation & Integration (I&I) contractor, during
FY 2008. A task order to complete the planning phase was issued to DOJ’s I&I contractor in October
2010. As of October 2011, this planning work is essentially complete, and DOJ issued an additional task
order to begin FBI implementation tasks and activities in August 2011. The FBI plans to implement
UFMS in three phases—in Phase 1 the FBI implemented the UFMS Contract Writing Tool in FY 2008; in
Phase 2 the FBI will implement full UFMS functionality at the Criminal Justice Information Services
Division, three Field Offices, and at least one Legat in FY 2013; and in Phase 3 the FBI will fully
implement UFMS at the remaining FBI organizations, Field Offices, and Legats in FY 2014.

In addition to the UFMS implementation, the FBI has implemented several projects to improve financial
reporting using the current FMS. These projects represent a series of bridge efforts and best-practice
initiatives that have helped the FBI move toward the implementation of UFMS. The best-practice
initiatives include: archiving historic and current FMS data; restructuring the Chart of Accounts; creating a
relational database structure; deploying an integrated financial reporting tool; and deploying a modern
graphical user interface (GUI).

The archive initiative was completed in June 2010, removing a significant number of records from the FMS
mainframe and reducing the risk to UFMS implementation. A comprehensive set of financial reports was
developed using the new strategic reporting tool and deployed to all field office divisions in July 2010 and
to headquarters divisions in October 2010. This tool provides FBI management with a standard set of
reports to rely on for their financial management needs and will be compatible with UFMS. The remaining


                                               - 34 -
Independent Auditors’ Report on Compliance and Other Matters
Page 5




modules of the graphical user interface were deployed in stages from September 2009 throughout June
2010. The GUI is now in use in all field offices and headquarters divisions. As of October 1, 2010, the
restructured chart of accounts was deployed for all non-personnel funds, providing the FBI with funds
control and financial tracking against program and subprogram levels. The chart of accounts restructure
supports the financial management activities of headquarters and field office divisions, satisfies the FBI’s
financial reporting obligation to DOJ, and prepares the FBI for migration to the budget and expense
structure of UFMS.

To resolve the findings related to the FBI’s property management systems, the Finance Division is leading
a Supply Chain Management (SCM) Program to improve the FBI’s business processes by implementing
new technologies to streamline purchasing and payment activities and improve vendor management,
enhance management of assets and inventory processes, and improve management of its growing fleet of
vehicles. The SCM Program will be accomplished in three phases. The first phase will consolidate and
replace the Property and Vehicle Management Applications (PMA and VMA) as well as Issued Personal
Property (IPP) and the Fixed Asset (FA) Module. The current goal for Phase I completion is the second
quarter of FY 2012. The implementation of a modern, commercial-off-the-shelf asset management system
during this phase will provide improved linkages to the existing procurement processes in FMS; improve
the accountability, tracking and accuracy of assets recorded; allow for better performance and metrics for
financial statements and other reporting; and will prepare for the tighter integration with accounting and
procurement enabled by UFMS.




                                              - 35 -
This page intentionally left blank. 





           - 36 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



     PRINCIPAL FINANCIAL STATEMENTS

           AND RELATED NOTES





                  - 37 -
This page intentionally left blank. 





           - 38 -
                                                   U.S. Department of Justice

                                                Federal Bureau of Investigation

                                                  Consolidated Balance Sheets

                                               As of September 30, 2011 and 2010


Dollars in Thousands                                                                       2011              2010

ASSETS (Note 2)
   Intragovernmental
       Fund Balance with U.S. Treasury (Note 3)                              $        3,618,458     $    3,694,239
       Accounts Receivable (Note 5)                                                     181,271            158,737
       Other Assets (Note 9)                                                             27,867             30,638
   Total Intragovernmental                                                            3,827,596          3,883,614

   Cash and Monetary Assets (Note 4)                                                    50,843              51,017
   Accounts Receivable, Net (Note 5)                                                    32,369              30,384
   Inventory and Related Property, Net (Note 6)                                          8,103               7,927
   General Property, Plant and Equipment, Net (Note 8)                               2,558,525           2,197,590
   Advances and Prepayments                                                             47,144              46,698
Total Assets                                                                 $      6,524,580       $   6,217,230

LIABILITIES (Note 10)
   Intragovernmental
       Accounts Payable                                                      $          229,722     $     162,573
       Accrued Federal Employees' Compensation Act Liabilities                           30,829            31,231
       Other Liabilities (Note 14)                                                      121,218           114,588
   Total Intragovernmental                                                              381,769           308,392

   Accounts Payable                                                                    416,733             488,886
   Actuarial Federal Employees' Compensation Act Liabilities                           182,426             176,353
   Accrued Payroll and Benefits                                                        208,273             187,572
   Accrued Annual and Compensatory Leave Liabilities                                   270,528             265,775
   Environmental and Disposal Liabilities (Note 11)                                      9,987               9,755
   Seized Cash and Monetary Instruments (Note 13)                                       42,880              42,120
   Contingent Liabilities (Note 15)                                                     52,335              66,762
   Other Liabilities (Note 14)                                                           4,687               3,297
Total Liabilities                                                            $      1,569,618       $   1,548,912

NET POSITION
   Unexpended Appropriations                                                 $       2,194,512      $    2,255,206
   Cumulative Results of Operations                                                  2,760,450           2,413,112
Total Net Position                                                           $      4,954,962       $   4,668,318

Total Liabilities and Net Position                                           $      6,524,580       $   6,217,230




Federal Bureau of Investigation                        - 39 -
                       The accompanying notes are an integral part of these financial statements.
                                                                       U.S. Department of Justice

                                                                     Federal Bureau of Investigation

                                                                  Consolidated Statements of Net Cost

                                                        For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands

                                               Gross Costs                                        Less: Earned Revenues                           Net Cost of
                          Intra­                With the                                   Intra-         With the                                Operations
             FY        governmental              Public                 Total           governmental       Public                 Total            (Note 16)

Goal 1      2011       $      1,448,527    $         3,877,856    $       5,326,383    $         449,197    $        14,739   $     463,936   $        4,862,447
            2010       $      1,358,631    $         3,826,696    $       5,185,327    $         495,393    $        12,603   $     507,996   $        4,677,331

Goal 2      2011              1,061,638              2,842,115            3,903,753              652,046            161,140         813,186            3,090,567
            2010              1,007,910              2,838,860            3,846,770              631,012            136,198         767,210            3,079,560

Total       2011       $    2,510,165      $        6,719,971     $      9,230,136     $      1,101,243     $      175,879    $   1,277,122   $       7,953,014
            2010       $    2,366,541      $        6,665,556     $      9,032,097     $      1,126,405     $      148,801    $   1,275,206   $       7,756,891



Goal 1    Prevent Terrorism and Promote the Nation's Security
Goal 2    Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People




Federal Bureau of Investigation                                                    - 40 -
                                               The accompanying notes are an integral part of these financial statements.
                                             U.S. Department of Justice

                                           Federal Bureau of Investigation

                                Consolidated Statements of Changes in Net Position

                              For the Fiscal Years Ended September 30, 2011 and 2010


 Dollars in Thousands                                                                2011                   2010




 Unexpended Appropriations
  Beginning Balances                                                  $       2,255,206           $   2,114,589

   Budgetary Financing Sources
    Appropriations Received                                                    7,941,932                7,922,537
    Appropriations Transferred-In/Out                                            (61,176)                  90,116
    Other Adjustments                                                            (15,884)                 (50,000)
    Appropriations Used                                                       (7,925,566)              (7,822,036)

   Total Budgetary Financing Sources                                             (60,694)               140,617

   Unexpended Appropriations                                          $       2,194,512           $   2,255,206

 Cumulative Results of Operations
  Beginning Balances                                                  $       2,413,112           $   1,923,897

   Budgetary Financing Sources
    Appropriations Used                                                        7,925,566                7,822,036

   Other Financing Sources
    Transfers-In/Out Without Reimbursement                                         74,270                 69,206
    Imputed Financing from Costs Absorbed
      by Others (Note 17)                                                         305,129                354,864
    Other Financing Sources                                                        (4,613)                     -

   Total Financing Sources                                                    8,300,352               8,246,106

   Net Cost of Operations                                                    (7,953,014)              (7,756,891)

   Net Change                                                                     347,338                489,215

   Cumulative Results of Operations                                   $       2,760,450           $   2,413,112

 Net Position                                                         $       4,954,962           $   4,668,318




Federal Bureau of Investigation                      - 41 -
                     The accompanying notes are an integral part of these financial statements.
                                                     U.S. Department of Justice

                                                   Federal Bureau of Investigation

                                           Combined Statements of Budgetary Resources

                                      For the Fiscal Years Ended September 30, 2011 and 2010


  Dollars in Thousands                                                                              2011              2010

  Budgetary Resources

     Unobligated Balance, Brought Forward, October 1                                    $        946,877    $     1,060,034

     Recoveries of Prior Year Unpaid Obligations                                                 216,564           166,563
     Budget Authority
        Appropriations Received                                                                7,941,932          7,922,537
        Spending Authority from Offsetting Collections
             Earned
               Collected                                                                       1,307,280          1,338,006
               Change in Receivables from Federal Sources                                         19,410              1,699
             Change in Unfilled Customer Orders
               Advance Received                                                                      771             17,463
               Without Advance from Federal Sources                                               (5,967)          (106,807)
     Subtotal Budget Authority                                                                 9,263,426          9,172,898
     Nonexpenditure Transfers, Net, Actual                                                       (61,176)            90,116
     Permanently not Available                                                                   (15,884)           (50,000)
  Total Budgetary Resources (Note 18)                                                   $    10,349,807     $   10,439,611

  Status of Budgetary Resources

     Obligations Incurred
         Direct                                                                         $      8,101,889    $     8,278,414
         Reimbursable                                                                          1,300,384          1,214,320
             Total Obligations Incurred (Note 18)                                              9,402,273          9,492,734
     Unobligated Balance - Available
         Apportioned                                                                             594,313           547,896
             Total Unobligated Balance - Available                                               594,313           547,896
     Unobligated Balance not Available                                                           353,221           398,981
  Total Status of Budgetary Resources                                                   $    10,349,807     $   10,439,611

  Change in Obligated Balance
     Obligated Balance, Net - Brought Forward, October 1
         Unpaid Obligations                                                             $      3,221,811    $     2,810,122
         Less: Uncollected Customer Payments from Federal Sources                                479,261            584,369
             Total Unpaid Obligated Balance, Net - Brought Forward, October 1                  2,742,550          2,225,753
     Obligations Incurred, Net                                                                 9,402,273          9,492,734
     Less: Gross Outlays                                                                       9,242,252          8,914,482
     Less: Recoveries of Prior Year Unpaid Obligations, Actual                                   216,564            166,563
     Change in Uncollected Customer Payments from Federal Sources                                (13,443)           105,108

     Obligated Balance, Net - End of Period
         Unpaid Obligations                                                                    3,165,268          3,221,811
         Less: Uncollected Customer Payments from Federal Sources                                492,704            479,261
             Total Unpaid Obligated Balance, Net - End of Period                        $     2,672,564     $    2,742,550

  Net Outlays
     Gross Outlays                                                                      $      9,242,252    $     8,914,482
     Less: Offsetting Collections                                                              1,308,051          1,355,469
     Less: Distributed Offsetting Receipts                                                        (7,284)               253

  Total Net Outlays (Note 18)                                                           $     7,941,485     $    7,558,760



Federal Bureau of Investigation                             - 42 -
                            The accompanying notes are an integral part of these financial statements.
               Notes to the Financial Statements


                                U.S. DEPARTMENT OF JUSTICE

                             FEDERAL BUREAU OF INVESTIGATION

                            NOTES TO THE FINANCIAL STATEMENTS

                          (DOLLARS IN THOUSANDS, EXCEPT AS NOTED)


1.     Summary of Significant Accounting Policies

       A. Reporting Entity
       The Federal Bureau of Investigation (“FBI” or “Bureau”), established in 1908, is an integral part
       of the Department of Justice (DOJ or the Department). The mission of the FBI is to protect and
       defend the United States (U.S.) against terrorist and foreign intelligence threats, to uphold and
       enforce the criminal laws of the U.S., and to provide leadership and criminal justice services to
       federal, state, local, and international agencies and partners. The Bureau also provides assistance
       to other federal, state, and local law enforcement agencies and the public at large. Assistance
       includes forensic services, training law enforcement officials, background investigations, name
       checks, fingerprint analyses, and cooperative criminal investigations.
       The accompanying financial statements of the FBI include the following funds under the
       administrative and/or operational control of the FBI: appropriated single, multi-year, and no-year
       Salaries and Expense (S&E) Funds; appropriated no-year Construction (CNST) Funds; and no-
       year Violent Crime Reduction Program (VCRP) Trust Funds. These funds include new
       appropriations, transfers of appropriations from other federal agencies, and the carry-over of prior
       years’ unobligated balances for multi-year and no-year appropriated funds.

       B. Basis of Presentation
       These financial statements have been prepared from the books and records of the FBI in
       accordance with U.S. generally accepted accounting principles issued by the Federal Accounting
       Standards Advisory Board and presentation guidelines in the Office of Management and Budget
       (OMB) Circular A-136, Financial Reporting Requirements. These financial statements are
       different from the financial reports prepared pursuant to OMB directives used to monitor and
       control the use of the FBI’s budgetary resources. To ensure that the FBI financial statements are
       meaningful at the entity level and to enhance reporting consistency within the Department, Other
       Assets and Other Liabilities as defined by OMB Circular A-136 have been disaggregated on the
       balance sheet. Other Assets include Advances and Prepayments, and Other Liabilities include
       Accrued Federal Employees’ Compensation Act Liabilities, Accrued Payroll and Benefits,
       Accrued Annual and Compensatory Leave Liabilities, Seized Cash and Monetary Instruments,
       and Contingent Liabilities.

       C. Basis of Consolidation
       The consolidated/combined financial statements include the accounts of the FBI. All significant
       proprietary intra-entity transactions and balances have been eliminated in consolidation. The
       Statements of Budgetary Resources are combined statements for Fiscal Years (FYs) 2011 and
       2010, and as such, intra-entity transactions have not been eliminated. The consolidated financial
       statements do not include centrally administered assets and liabilities of the federal government
       as a whole, such as General Services Administration (GSA) owned property and equipment, and



Federal Bureau of Investigation                       - 43 -
                             These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       borrowings from the public by the U.S. Department of the Treasury (Treasury), which may in part
       be attributed to the FBI.

       D. Basis of Accounting
       Transactions are recorded on the accrual and budgetary bases of accounting. Under the accrual
       basis, revenues are recorded when earned and expenses are recorded when incurred, regardless of
       when cash is exchanged. Under the budgetary basis, however, funds availability is recorded
       based upon legal considerations and constraints. As a result, certain line items on the proprietary
       financial statements may not equal similar line items on the budgetary financial statements.

       E. Non-Entity Assets
       Non-entity assets represent assets temporarily controlled and administered by the FBI, but not
       available to the FBI as a financing source for operations. The FBI withholds state and local
       income taxes from taxable travel and transfer related expenses from FBI employees for
       subsequent disbursement to the applicable taxing authorities. Undisbursed withholdings at fiscal
       year-end are recorded as non-entity assets on the balance sheet with an offsetting liability. Cash
       temporarily held by the FBI as evidence for legal proceedings is also included on the balance
       sheet as a non-entity asset with an offsetting liability.

       F. Fund Balance with U.S. Treasury and Cash
       For the most part, the FBI does not maintain cash in commercial bank accounts. Receipts are
       processed by commercial banks for deposit to individual accounts maintained at the Treasury.
       Treasury and other Treasury-designated disbursing officers process cash receipts and
       disbursements as directed by authorized FBI certifying officers. Fund balances with the Treasury
       primarily represent appropriated, revolving, and trust funds available to pay current liabilities and
       finance future authorized purchases of goods and services. The FBI field offices and legal
       attachés maintain imprest and emergency funds to accommodate law enforcement cash
       requirements occurring outside normal banking system operating hours.

       G. Accounts Receivable
       Accounts receivable are established for amounts due to overpayments and for reimbursable
       expenses incurred by the FBI in providing goods and services ordered by other entities.
       Intragovernmental accounts receivable represent amounts due from federal entities and agencies.
       Other receivables represent amounts due from state and local governments, individuals, and other
       non-federal entities.
       The Allowance for Uncollectible Accounts calculation methodology is a percentage based on
       outstanding receivables weighted against the collections rate of those receivables. An analytical
       review is conducted annually to update the percentage applied to outstanding receivables. An
       invoice is deemed delinquent if it is unpaid after 30 days. Intragovernmental receivables are
       considered fully collectible.




Federal Bureau of Investigation                      - 44 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       H. Inventory and Related Property
       Operating materials and supplies consist of fuel, ammunition, spare aircraft parts, and office
       supplies. Operating materials and supplies are valued at acquisition cost. Supplies and materials
       are for entity use only, and are not for sale.

       I. General Property, Plant, and Equipment
       Property, plant, and equipment are stated at cost, less accumulated depreciation. The FBI
       capitalizes property, plant, and equipment with an acquisition cost (or individual asset recognition
       value) greater than $25 and a useful life greater than or equal to two years. Expenditures for
       property and equipment with an acquisition cost (or individual asset recognition value) less than
       $25 or a useful life of less than two years are charged to operating expenses as incurred.
       Since October 1, 2000, the FBI has capitalized internal use software and bulk purchases of
       Commercial Off-the-Shelf (COTS) software with an acquisition cost exceeding $500 and a useful
       life exceeding two years. Internal use software and bulk-purchases of COTS software not
       meeting this capitalization threshold or useful life timeframe are expensed.
       During FY 2002, the FBI implemented revised DOJ policy regarding FBI-funded improvements
       to facilities leased by, or for, the FBI. The revised DOJ policy requires capitalization of
       improvements exceeding $100 that expand the capacity of a facility, or otherwise upgrade it to
       serve a function different from, or significantly greater than, that originally intended.
       The FBI uses work-in-progress (WIP) accounts to capitalize expenditures associated with on­
       going leasehold improvements projects, the on-going construction of facilities and equipment,
       and the development of internal use software that meet FBI’s capitalization thresholds. Upon
       completion of the project(s), the applicable costs are transferred from WIP to a depreciable asset.
       Depreciation of capitalized assets (other than land and WIP accounts) is computed on a straight-
       line basis over the estimated useful economic life of the respective asset.
       While the FBI does own some land, buildings, and other structures, it leases its headquarters
       building, field office buildings, and warehouse space from the GSA. The FBI also leases office
       space from non-governmental entities, both in the U.S. and abroad.

       J. Advances and Prepayments
       Advances and prepayments classified as assets include funds disbursed to finance operations that
       exceed the total expenditures incurred. This amount also includes advances of funds to federal
       employees for official travel, and the balance of travel advances in excess of travel expenses
       claimed on reimbursement vouchers. When authorized by procurement regulations, payments
       made in advance of the FBI’s receipt of goods and services are recorded as prepaid charges at the
       time of prepayment and recognized as expenditures/expense when the related goods and services
       are received. Advances and prepayments involving other federal agencies are classified as Other
       Assets on the balance sheet.




Federal Bureau of Investigation                      - 45 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       K. Seized Property
       All property seized for forfeiture, including property with evidentiary value, is reported by the
       DOJ Assets Forfeiture Fund and Seized Asset Deposit Fund. The FBI has an established
       reporting threshold of $1 or more for Personal Property seized for evidentiary purposes. The FBI
       reports each seized personal property evidence record as a single unit of measure.
       Cash in the custody of the FBI for evidentiary purposes is recognized as an asset on the balance
       sheet with an offsetting liability. Non-monetary valuable property held as evidence is disclosed
       in Note 7 at the appraised or fair market value at the time of the seizure and is not adjusted to any
       subsequent increases and decreases in estimated fair market value. It is not recognized as an asset
       on the balance sheet.
       Quantities of illegal drugs and firearms held as evidence are disclosed in Note 7 in accordance
       with Statement of Federal Financial Accounting Standards (SFFAS) No. 3, Accounting for
       Inventory and Related Property, and Federal Financial Accounting and Auditing Technical
       Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Reported quantities of
       drugs include only substances over one kilogram (KG) that are laboratory-analyzed and
       confirmed.

       L. Liabilities
       Liabilities represent the amount of monies or other resources likely to be paid by the FBI as the
       result of a transaction or an event that has already occurred. However, absent proper budget
       authority, the FBI cannot pay a liability. Liabilities for which an appropriation has not been
       enacted are considered unfunded liabilities. As a result, there is no certainty that corresponding
       future appropriations will be enacted to liquidate these unfunded liabilities.

       M. Contingencies and Commitments
       The FBI is party to various administrative proceedings, legal actions, and claims. The balance
       sheet includes an estimated liability for those legal actions where management and the Chief
       Counsel consider adverse decisions “probable” and amounts are reasonably estimable. Legal
       actions where management and the Chief Counsel consider adverse decisions “probable” or
       “reasonably possible” and the amounts are reasonably estimable are disclosed in Note 15,
       Contingencies and Commitments. However, there are cases where amounts have not been
       accrued or disclosed because the amounts of the potential loss cannot be estimated or the
       likelihood of an unfavorable outcome is considered “remote.”

       N. Annual, Sick, and Other Leave
       Annual leave and compensatory leave are expensed as earned with an offsetting liability.
       Liabilities are reduced as leave is taken. At the end of each fiscal quarter, the balance in the
       accrued annual leave liability account is adjusted to reflect valuation at current pay rates. To the
       extent current-year or prior-year appropriations are not available to fund annual and
       compensatory leave that is earned but not taken, funding will be obtained from future financing
       sources. Sick leave and other types of non-vested leave are expensed as taken.




Federal Bureau of Investigation                      - 46 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)

       O. Interest on Late Payments
       Pursuant to the Prompt Payment Act of 1999 (31 U.S.C. 3901-3907), the FBI pays interest to
       commercial concerns for payments made after the payment due date. The payment due date is
       generally 30 days after the receipt of a valid invoice by the designated activity, or 30 days after
       the receipt and acceptance of the goods or services, whichever is later. Interest is computed on
       the principal amount due at the rate of interest established by the Secretary of the Treasury, and
       published in the Federal Register, for interest payments under section 12 of the Contract Disputes
       Act of 1978 (41 U.S.C. 611). Interest is paid for the period beginning one day after the principal
       payment due date and ending on the date on which the principal payment is made.

       P. Retirement Plans
       With few exceptions, employees hired before January 1, 1984, are covered by the Civil Service
       Retirement System (CSRS), and employees hired on or after that date are covered by the Federal
       Employees Retirement System (FERS).
       The accompanying financial statements report expenses incurred by the FBI for required
       contributions made to retirement accounts administered by the Office of Personnel Management
       (OPM). For employees covered by the CSRS, the FBI contributes 7.0 percent of the support
       employees’ gross pay for normal retirement and for agents 7.5 percent. For employees covered
       by the FERS, the FBI contributes 11.7 percent of the support employees’ gross pay and for agents
       25.7 percent. All employees are eligible to contribute to the Federal Thrift Savings Plan (TSP).
       For employees covered by the FERS, the FBI automatically contributes 1.0 percent of gross pay
       and matches employee contributions up to 4.0 percent of gross pay. The FBI is not authorized to
       make automatic or matching contributions to the TSP for employees covered by the CSRS. The
       FBI’s financial statements do not report CSRS or FERS assets, accumulated plan benefits, or any
       related unfunded liabilities, which may be applicable to its employees. Such reporting is the
       responsibility of OPM.
       The FBI recognizes an additional expense and an offsetting imputed financing source for FBI
       Pension and Other Retirement Benefits Expense not covered by employee and FBI contributions;
       this expense is ultimately paid by OPM.

       Q. Federal Employee Compensation Benefits
       The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection
       to covered federal civilian employees injured on the job, employees who have incurred a work-
       related occupational disease, and beneficiaries of any employee whose death is attributable to a
       job-related injury or occupational disease. Claims incurred for benefits for FBI employees under
       FECA are administered by the Department of Labor (DOL) and are ultimately paid by the FBI.
       The total FECA liability has two components: (1) unpaid billings and (2) an amount of estimated
       unbilled claims. Unpaid billings represent claims already paid by the DOL, which have not yet
       been reimbursed by the FBI. There is generally a two-year delay in the processing of the DOL
       payments through DOJ to the FBI. The FBI reports the unpaid billings as Accrued FECA
       Liabilities in Note 10.




Federal Bureau of Investigation                       - 47 -
                             These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       Unbilled claims are estimated by the DOL by applying actuarial projections to incurred (both
       reported and unreported) claims. The DOL calculates the actuarial liability of the federal
       government for future compensation benefits, which includes the expected liability for death,
       disability, medical, and miscellaneous approved compensation costs. The liability is determined
       using the paid-losses extrapolation method calculated over the next 37-year period. This method
       uses historical benefit payment patterns related to a specific incurred period to predict the
       ultimate payments related to that period. The projected annual benefit payments were discounted
       to present value. The resulting federal government liability is then distributed by the DOL to the
       respective departments.
       DOJ calculates and distributes each bureau’s respective portion of the total DOJ actuarial liability
       that is recorded for reporting purposes only. The Actuarial FECA Liability, reported in Note 10,
       constitutes an extended estimate of future costs that will be obligated against budgetary resources
       the fiscal year in which the cost is actually paid to DOL by DOJ, and subsequently by the FBI.

       R. Intragovernmental Activity
       Intragovernmental cost and exchange revenue represent transactions made between two reporting
       entities within the federal government. Costs and exchange revenues with the public represent
       exchange transactions made between the reporting entity and a non-federal entity. The
       classification of revenue or cost as “intragovernmental” or “with the public” is defined on a
       transaction-by-transaction basis. The purpose of this classification is to enable the federal
       government to prepare consolidated financial statements, not to match public and
       intragovernmental revenue with the costs incurred to produce public and intragovernmental
       revenue.

       S. Revenues and Other Financing Sources
       The FBI receives funding to support its programs and execute its assigned mission from three
       primary sources: (1) annual, no-year, and multi-year appropriations by the U.S. Congress; (2)
       appropriated funds transferred to the FBI; and (3) reimbursable program funding. Appropriated
       funds (appropriated to the FBI or appropriated to other federal entities and transferred to the FBI
       for execution) represent the majority of the FBI’s operating budget.
       A source of revenue to the FBI are fees authorized by law for providing fingerprint-based and
       name-based Criminal History Record Information checks and other identification services
       submitted by authorized users for noncriminal justice purposes, including employment and
       licensing. The fee is based on full-cost recovery, and is determined using an activity-based cost
       model. By law, the FBI may set such fees at a level to include an additional amount to establish a
       fund to defray expenses for the automation of fingerprint identification and criminal justice
       information services and associated costs. Fee schedules are announced in the Federal Register
       following a public comment period. The current schedule went into effect on October 1, 2007.
       The FBI is not authorized to charge fees for fingerprint identification and criminal justice
       information services for law enforcement purposes.




Federal Bureau of Investigation                      - 48 -
                            These notes are an integral part of the financial statements.
               Notes to the Financial Statements


1.     Summary of Significant Accounting Policies (continued)
       Other financing sources to the FBI include assets transferred to the FBI without reimbursement
       and imputed financing for: (1) FBI pension and other benefits expenses not covered by employee
       and FBI contributions and which are ultimately paid by OPM; and (2) expenses for legal claims
       paid out of the Treasury Judgment Fund on behalf of the FBI.
       Appropriations are recognized as financing sources when the goods and services authorized to be
       paid from the appropriations have been received and accepted, or when program or administrative
       expenses have been incurred. Revenue from reimbursable activities is recognized when it is
       earned, i.e. when the goods or services ordered have been delivered or rendered to the ordering
       entity. The FBI also earns revenue from the sale of assets, principally vehicles.

       T. Earmarked Funds
       SFFAS No. 27, Identifying and Reporting Earmarked Funds defines “earmarked funds” as being
       financed by specifically identified revenues, often supplemented by other financing sources,
       which remain available over time. These specifically identified revenues and other financing
       sources are required by statute to be used for designated activities, benefits, or purposes, and must
       be accounted for separately from the government’s general revenues. The three required criteria
       for an earmarked fund are:
           1.	 A statute committing the federal government to use specifically identified resources and
               other financing sources only for designated activities, benefits, or purposes;
           2.	 Explicit authority for the earmarked fund to retain revenues and other financing sources
               not used in the current period for future use to finance the designated activities, benefits,
               or purposes; and
           3.	 A requirement to account for and report on the receipt, use, and retention of the revenues
               and other financing sources that distinguishes the earmarked fund from the government’s
               general revenues.
       There are no funds that meet the definition of an earmarked fund.

       U. Tax Exempt Status
       As an agency of the federal government, the FBI is exempt from all income taxes imposed by any
       governing body whether it is a federal, state, commonwealth, local, or foreign government.

       V. Use of Estimates
       The preparation of financial statements requires management to make estimates and assumptions
       that affect the reported amounts of assets and liabilities and the reported amounts of revenue and
       expenses during the reporting period. Actual results could differ from those estimates.

       W. Reclassifications
       The FY 2010 financial statements were reclassified to conform to the FY 2011 Departmental
       financial statement presentation requirements. The reclassifications had no material effect on
       total assets, liabilities, net position, change in net position, or budgetary resources as previously
       reported.



Federal Bureau of Investigation                        - 49 -
                              These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


1.      Summary of Significant Accounting Policies (continued)

        X. Subsequent Events
        Subsequent events and transactions occurring after September 30, 2011 through the date of the
        auditors’ opinion have been evaluated for potential recognition or disclosure in the financial
        statements. The date of the auditors’ opinion also represents the date that the financial statements
        were available to be issued.

2.      Non-Entity Assets
Non-entity assets are assets that are held by the FBI but are not available for its use.


           As of September 30, 2011 and 2010
                                                                             2011                     2010
           Intragovernmental
             Fund Balance with U.S. Treasury                         $              429       $          8,031

           With the Public
            Cash and Monetary Assets                                            46,005                   44,684
              Total Non-Entity Assets                                           46,434                   52,715
              Total Entity Assets                                            6,478,146                6,164,515
              Total Assets                                           $       6,524,580        $       6,217,230




3.      Fund Balance with U.S. Treasury


          As of September 30, 2011 and 2010
                                                                               2011                   2010
          Fund Balances
            Trust Fund                                                   $             4          $           4
            General Funds                                                      3,618,025              3,686,204
            Other Fund Types                                                         429                  8,031
              Total Fund Balances with U.S. Treasury                     $     3,618,458          $   3,694,239

          Status of Fund Balances
            Unobligated Balance - Available                              $       594,313          $     547,896
            Unobligated Balance - Unavailable                                    353,221                398,981
            Obligated Balance not yet Disbursed                                2,672,564              2,742,550
            Other Funds (With)/Without Budgetary Resources                        (1,640)                 4,812
              Total Status of Fund Balances                              $     3,618,458          $   3,694,239




Federal Bureau of Investigation                        - 50 -
                              These notes are an integral part of the financial statements.
                Notes to the Financial Statements


3.      Fund Balance with U.S. Treasury (continued)
The Trust Fund amount includes the remaining funds resulting from the Violent Crime Reduction Trust
Fund which was established by the Violent Crime and Law Enforcement Act of 1994. The General Funds
amount includes the remaining funds resulting from budget authority to pay valid obligations. Other
Fund Types amount includes deposit clearing and suspense accounts temporarily held with Treasury until
such time they are required for use.
Unobligated Balance-Available includes current year apportionments that may be used for new
obligations. Unobligated Balance-Unavailable includes amounts appropriated in prior fiscal years that are
no longer available to fund new obligations, but can be used for upward and/or downward adjustments for
existing obligations. Additionally, this line includes amounts received that are restricted to future use and
as a result are not apportioned for current use. Obligated Balance not yet Disbursed includes obligations
of appropriated funds and obligations related to reimbursable activity. Other Funds (With)/Without
Budgetary Resources includes deposit clearing and suspense accounts.


4.      Cash and Monetary Assets


             As of September 30, 2011 and 2010
                                                                      2011                       2010
             Cash
              Undeposited Collections                           $           2,765            $      3,111
              Imprest Funds                                                 2,071                   3,219
              Other Cash                                                    3,127                   2,567
                Total Cash                                                  7,963                   8,897


             Monetary Assets
              Seized Monetary Instruments                                 42,880                   42,120
                Total Cash and Monetary Assets                  $         50,843             $     51,017


Undeposited Collections includes various in-transit accounts where account activities have been
processed in the FBI’s Financial Management System, but not deposited in the bank and reported to
Treasury via the Classification Transaction and Accountability (CTA) Report (formerly SF-224) monthly
submission. The Undeposited Collections balance represents timing differences in the recording of
transactions between the FBI and Treasury.
Imprest Funds reflects monies dedicated for operational support, such as petty cash and emergency funds.
Other Cash consists of project-generated revenue from undercover operations.
Seized Monetary Instruments represents cash evidence obtained during FBI investigations held pending
release to the rightful owners.




Federal Bureau of Investigation                       - 51 -
                             These notes are an integral part of the financial statements.
                Notes to the Financial Statements


5.      Accounts Receivable, Net


           As of September 30, 2011 and 2010
                                                                       2011                          2010
           Intragovernmental
             Accounts Receivable                                $         181,271            $        158,737

           With the Public
            Accounts Receivable                                            33,719                      31,600
            Allowance for Uncollectible Accounts                           (1,350)                     (1,216)
              Total With the Public                                        32,369                      30,384
              Total Accounts Receivable, Net                    $         213,640            $        189,121


Intragovernmental receivables are based on services provided to other federal agencies for activities such
as name checks, requests for international travel, and training. The significant types of receivables
reported in With the Public include the Non-Federal User Fee Program and the National Name Check
Program. These customers are typically state and local government agencies conducting background
checks on individuals working in a field other than law enforcement.


6.      Inventory and Related Property, Net


          As of September 30, 2011 and 2010
                                                                            2011                      2010
          Operating Materials and Supplies
           Held for Current Use                                       $          8,103           $          7,927




Federal Bureau of Investigation                       - 52 -
                             These notes are an integral part of the financial statements.
                Notes to the Financial Statements


7.      Seized Property
Analysis of Change in Seized Property:
Seized Monetary Instruments (see also Notes 4 and 13) includes cash held by the FBI as evidence for
legal proceedings, and is reported on the Balance Sheet as an asset, with an offsetting liability. Non-
monetary evidence includes art, jewelry, and other valuables (see Note 1.K). According to DOJ
guidelines, evidence items subject to forfeiture are not disclosed by the seizing agency.
The item counts and financial value of non-monetary valuable property in the custody of the FBI as of
September 30, 2011 and September 30, 2010, for evidentiary purposes, and activity during each fiscal
year are summarized in the following charts in accordance with SFFAS No. 3, Accounting for Inventory
and Related Property. Items are disclosed at their appraised value or their estimated market value.
Drug evidence is presented in accordance with Federal Financial Accounting and Auditing Technical
Release No. 4, Reporting on Non-Valued Seized and Forfeited Property. Analyzed drug evidence
represents actual laboratory-tested classification and weight in KG. Since enforcement of the controlled
substances laws and regulations of the U.S. is incidental to the mission of the FBI, only individual
seizures exceeding one KG in weight are reported.
“Other” primarily consists of illegal substances seized for evidence not including cocaine, heroin,
marijuana, or methamphetamine. The actual drug weight may vary from seizure weight due to changes in
moisture content over time.
Unanalyzed drug evidence is not reported by the FBI because it is neither weighed nor confirmed by
laboratory chemists. Seized drug evidence must be analyzed and confirmed through laboratory testing to
be placed in one of the five categories of drugs above. “Disposals” occur when evidence is either
returned to the owner or destroyed in accordance with federal guidelines.




Federal Bureau of Investigation                       - 53 -
                             These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


7.      Seized Property (continued)

         For the Fiscal Year Ended September 30, 2011

              Seized Property                   Beginning                                                       Ending
                 Category                       Balance      Adjustments**      Seizures       Disposals        Balance
         Seized for Evidence

           Seized Monetary
           Instruments            Value     $       42,120 $        (4,910) $       38,423 $       (32,753) $        42,880

           Personal Property      Number             1,385               4             404            (451)           1,342
                                  Value  $          24,692 $         9,632 $        13,886 $       (12,279) $        35,931

           Non-Valued
            Firearms              Number            27,564            261            3,401          (1,843)          29,383
            Drug Evidence
               Cocaine            KG                 6,361           (356)             577            (438)           6,144
               Heroin             KG                   428            (19)              28             (19)             418
               Marijuana          KG                 3,990           (111)             104            (294)           3,689
               Methamphetamine    KG                   481              1               84             (20)             546
               Other              KG                 1,233           (182)             140            (111)           1,080
           Total Drug Evidence                      12,493           (667)             933            (882)          11,877




         For the Fiscal Year Ended September 30, 2010

              Seized Property                   Beginning                                                       Ending
                 Category                       Balance      Adjustments**      Seizures       Disposals        Balance
         Seized for Evidence

           Seized Monetary
           Instruments            Value     $       37,390 $        (2,167) $       25,732 $       (18,835) $        42,120

           Personal Property      Number             1,263              47             270            (195)           1,385
                                  Value  $          25,791 $        (2,180) $       12,891 $       (11,810) $        24,692

           Non-Valued
            Firearms              Number            26,060            (94)           2,829          (1,231)          27,564
            Drug Evidence
               Cocaine            KG                 6,309            381              185            (514)           6,361
               Heroin             KG                   256            164                9              (1)             428
               Marijuana          KG                 4,230            (26)              75            (289)           3,990
               Methamphetamine    KG                   527            (47)              20             (19)             481
               Other              KG                   995            386              101            (249)           1,233
           Total Drug Evidence                      12,317            858              390          (1,072)          12,493


**Adjustments include property status and valuation changes received after, but properly credited to,
prior fiscal years. Valuation changes include updates and corrections to an asset’s value recorded in a
prior year.



Federal Bureau of Investigation                               - 54 -
                                  These notes are an integral part of the financial statements.
                    Notes to the Financial Statements


7.        Seized Property (continued)
Method of Disposition of Seized Property:
During FYs 2011 and 2010, $10,416 and $11,589 of valued property seized for evidence were returned to
parties with a bonafide interest, and $34,616 and $19,056 were either released to a designated party or
transferred to the appropriate federal entity under forfeiture or abandonment proceedings. Non-valued
property was primarily disposed of through destruction.


8.        General Property, Plant and Equipment, Net

     As of September 30, 2011
                                                     Acquisition        Accumulated            Net Book         Useful
                                                       Cost              Depreciation           Value            Life
     Land and Land Rights                          $      12,590        $            -       $      12,590       N/A
     Construction in Progress                            312,699                     -             312,699       N/A
     Buildings, Improvements, and Renovations            567,734             (256,565)             311,169   10-50 years
     Other Structures and Facilities                      35,088               (9,622)              25,466   10-50 years
     Aircraft                                            248,256              (50,214)             198,042    5-30 years
     Boats                                                  7,813              (4,661)               3,152    5-25 years
     Vehicles                                            243,191             (155,673)              87,518    2-25 years
     Equipment                                           916,763             (500,456)             416,307    2-25 years
     Leasehold Improvements                              398,010             (118,939)             279,071    3-10 years
     Internal Use Software                               530,413             (147,893)             382,520    3-10 years
     Internal Use Software in Development                529,991                     -             529,991       N/A
     Total                                         $ 3,802,548          $ (1,244,023)        $ 2,558,525


During FY 2011, the FBI purchased $104,894 in capital property from federal sources and $454,953 from
the public.

     As of September 30, 2010
                                                     Acquisition        Accumulated            Net Book         Useful
                                                       Cost              Depreciation           Value            Life
     Land and Land Rights                          $      12,590        $            -       $      12,590       N/A
     Construction in Progress                            277,706                     -             277,706       N/A
     Buildings, Improvements, and Renovations            557,035             (236,997)             320,038   10-50 years
     Other Structures and Facilities                      35,088               (8,448)              26,640   10-50 years
     Aircraft                                            195,566              (42,364)             153,202    5-30 years
     Boats                                                  7,442              (4,116)               3,326    5-25 years
     Vehicles                                            241,139             (144,128)              97,011    2-25 years
     Equipment                                           856,435             (500,538)             355,897    2-25 years
     Leasehold Improvements                              279,628              (81,064)             198,564    3-10 years
     Internal Use Software                               225,468              (87,857)             137,611    3-10 years
     Internal Use Software in Development                615,005                     -             615,005       N/A
     Total                                         $ 3,303,102          $ (1,105,512)        $ 2,197,590


During FY 2010, the FBI purchased $142,287 in capital property from federal sources and $536,580 from
the public.


Federal Bureau of Investigation                             - 55 -
                                   These notes are an integral part of the financial statements.
                Notes to the Financial Statements


9.      Other Assets


           As of September 30, 2011 and 2010
                                                                     2011                         2010
           Intragovernmental
             Advances and Prepayments                          $          27,867              $       30,638




10.     Liabilities not Covered by Budgetary Resources

          As of September 30, 2011 and 2010
                                                                                2011                  2010
          Intragovernmental
            Accrued FECA Liabilities                                       $        30,829        $      31,231
            Other Unfunded Employment Related Liabilities                              288                  191
              Total Intragovernmental                                               31,117               31,422

          With the Public
           Actuarial FECA Liabilities                                             182,426               176,353
           Accrued Annual and Compensatory Leave Liabilities                      270,528               265,775
           Environmental and Disposal Liabilities (Note 11)                         9,987                 9,755
           Contingent Liabilities (Note 15)                                        52,335                66,762
             Total With the Public                                                515,276               518,645
             Total Liabilities not Covered by Budgetary Resources                 546,393               550,067
             Total Liabilities Covered by Budgetary Resources                   1,023,225               998,845
             Total Liabilities                                             $    1,569,618         $   1,548,912


Liabilities not Covered by Budgetary Resources reports the receipt of goods and services, or eligible
events in the current or prior periods, for which funds to pay the liabilities have not been made available
through appropriations to the FBI.


11.     Environmental and Disposal Liabilities
In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, SFFAS No. 6,
Accounting for Property, Plant, and Equipment, and Federal Financial Accounting and Auditing
Technical Release No. 2, Determining Probable and Reasonably Estimable for Environmental Liabilities
in the Federal Government, federal agencies are required to recognize liabilities for environmental
cleanup costs when the future outflow or sacrifice of resources is probable and reasonably estimable.




Federal Bureau of Investigation                        - 56 -
                              These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


11.     Environmental and Disposal Liabilities (continued)
As environmental-related cleanup costs are paid, the liabilities are reduced. Additionally, estimates will
be revised periodically to account for material changes due to inflation, technology, and applicable laws
and regulations. Any material changes in the estimated total cleanup costs will be expensed when
estimates are revised and the liability balance adjusted.
Asbestos
Section 112 of the Clean Air Act requires the U.S. Environmental Protection Agency (EPA) to develop
and enforce regulations to protect the general public from exposure to airborne contaminants known to be
hazardous to human health. On March 31, 1971, the EPA identified asbestos as a hazardous pollutant,
and on April 6, 1973, the EPA first promulgated the Asbestos National Emissions Standards for
Hazardous Air Pollutants.
The FBI exercises due care in determining the presence of contamination in adherence to the law, rules
and regulations and policies by the Clean Air Act. The Facilities and Logistics Service Division (FLSD),
responsible for managing and maintaining FBI and non-FBI owned facilities, has identified FBI-owned
facilities in Quantico that contain hazardous friable and non-friable asbestos. The facilities have a useful
life of 50 years. The estimated total liability of $11,613 is based on the square footage of the facilities
that may be contaminated. This value, divided by the useful life and multiplied by the number of years in
service, is the estimated cleanup liability. As of September 30, 2011 and 2010, the FBI reported the
estimated cleanup liability of $9,987 and $9,755, respectively. The estimated asbestos cleanup liability is
increased each quarter by recording future funded expenses for the asbestos cleanup costs. During
FY 2011, future funded expense for asbestos cleanup is $232. There are no other potentially responsible
parties to the environmental liability and there are no unrecognized amounts to disclose as of
September 30, 2011.


12.     Leases
The majority of space occupied by the FBI is leased from the GSA. The rental cost is based on the area
occupied at the commercial rate per square foot, negotiated by the GSA along with appropriate GSA fees.
The majority of the leases are cancelable; however, if tenant improvement (TI) costs are amortized in the
lease and the FBI terminates prior to the end of the amortized period, the FBI will be responsible for the
unpaid TI costs.
Typically, the minimum lease term for a Resident Agency (RA) is five years and the maximum is 10
years. The minimum lease term for a field office is 15 years and the maximum is 20 years.
The FBI has a long-range program to relocate all field offices into single tenant, stand-alone, secure
facilities. All new leases for field offices and some RAs will be noncancelable, whereas the Headquarters
Annex lease will be cancelable.
The FBI currently anticipates relocating 15 field offices between FY 2012 and FY 2017. When field
offices relocate, often from space leased for 20 years or longer, the rental rates increase significantly to
accommodate the FBI's growth in workforce, space needs, and specialized security requirements.




Federal Bureau of Investigation                        - 57 -
                              These notes are an integral part of the financial statements.
               Notes to the Financial Statements


12.    Leases (continued)

         As of September 30, 2011

         Future Noncancelable Operating Lease Payments Due

                                                      Land and            Machinery and
         Fiscal Year                                  Buildings             Equipment            Total
           2012                                     $     201,182         $       8,824      $     210,006
           2013                                           258,024                 8,910            266,934
           2014                                           289,390                 4,320            293,710
           2015                                           287,515                 4,320            291,835
           2016                                           287,950                     -            287,950
           After 2016                                   3,284,703                     -          3,284,703
            Total Future Noncancelable Operating
              Lease Payments                     $        4,608,764        $       26,374    $   4,635,138




13.    Seized Cash and Monetary Instruments
Seized Cash and Monetary Instruments represents liabilities for seized assets held by the FBI pending
disposition. The Seized Cash and Monetary Instruments as of September 30, 2011 and 2010 are $42,880
and $42,120, respectively.




Federal Bureau of Investigation                       - 58 -
                             These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


14.     Other Liabilities
All Other Liabilities are current and presented in the following table:

         As of September 30, 2011 and 2010
                                                                                    2011                2010
         Intragovernmental
           Employer Contributions and Payroll Taxes Payable                    $       62,866       $     56,213
           Other Post-Employment Benefits Due and Payable                                 594                334
           Other Unfunded Employment Related Liabilities                                  288                191
           Advances from Others                                                        57,468             57,850
           Liability for Deposit Funds, Clearing
              Accounts and Undeposited Collections                                          2                  -
             Total Intragovernmental                                                  121,218            114,588

         With the Public
          Advances from Others                                                          1,155                  2
          Liability for Deposit Funds, Clearing
             Accounts and Undeposited Collections                                         405                727
          Other Liabilities                                                             3,127              2,568
            Total With the Public                                                       4,687              3,297
            Total Other Liabilities                                            $      125,905       $    117,885




15.     Contingencies and Commitments


                                                  Accrued                     Estimated Range of Loss
                                                  Liabilities               Lower              Upper
          As of September 30, 2011
           Probable                           $         52,335          $          52,335       $       166,900
           Reasonably Possible                                                      9,910                14,690

          As of September 30, 2010
           Probable                           $         66,762          $          66,762       $       172,217
           Reasonably Possible                                                     16,268                21,088




16.     Net Cost of Operations by Suborganization
The FBI reports on two of three DOJ Strategic Goals. The table on the next page breaks out expenses and
revenues by these two goals. Additionally, the FBI utilizes decision units to identify operational net costs.



Federal Bureau of Investigation                         - 59 -
                               These notes are an integral part of the financial statements.
                        Notes to the Financial Statements


16.        Net Cost of Operations by Suborganization (continued)
The Intelligence Reform and Terrorism Prevention Act of 2004 reads, “The Director of the Federal
Bureau of Investigation shall, establish a budget structure of the Federal Bureau of Investigation to reflect
the four principal missions of the Bureau as follows: Intelligence, Counterterrorism and
Counterintelligence, Criminal Enterprises/Federal Crimes, [and] Criminal Justice Services.” Consistent
with the law, the FBI budgets according to these four broad categories, or decision units.
The Intelligence Decision Unit includes the Directorate of Intelligence, Intelligence Analysts, Field
Intelligence Group agents, the Language Program, the Terrorist Screening Center, Foreign Terrorist
Tracking Task Forces, Asset/Informant Funding, and several other programs. The
Counterterrorism/Counterintelligence Decision Unit includes the Counterintelligence Division,
Counterterrorism Division, a portion of the Cyber Division, and several other programs. The Criminal
Enterprises/Federal Crimes Decision Unit includes the Criminal Investigative Division, a portion of the
Cyber Division, and several other programs. The Criminal Justice Services Decision Unit consists
primarily of the Criminal Justice Information Services Division. All FBI programs fall within a decision
unit, though several programs (particularly support programs) span multiple decision units.
Expenses are broken out by decision unit based on programmatic function and workload percentages.

   For the Fiscal Year Ended September 30, 2011
                                                                                        Suborganizations
                                                                          Counterterrorism/      Criminal Enterprises/
                                                  Intelligence Decision   Counterintelligence       Federal Crimes        Criminal Justice
                                                           Unit             Decision Unit            Decision Unit     Services Decision Unit    Consolidated

   Goal 1: Prevent Terrorism and Promote the Nation's Security
    Gross Cost                                    $            831,118 $            2,283,490 $             1,759,806 $              451,969 $          5,326,383
    Less: Earned Revenue                                        17,274                377,122                  31,093                 38,447              463,936
    Net Cost of Operations                                     813,844              1,906,368               1,728,713                413,522            4,862,447

   Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
    Gross Cost                                                609,134                1,673,590              1,289,777                331,252            3,903,753
    Less: Earned Revenue                                         7,990                  23,503                403,883                377,810              813,186
    Net Cost of Operations                                    601,144                1,650,087                885,894                (46,558)           3,090,567

   Net Cost of Operations                         $          1,414,988 $            3,556,455 $             2,614,607 $              366,964 $          7,953,014




   For the Fiscal Year Ended September 30, 2010
                                                                                        Suborganizations
                                                                          Counterterrorism/      Criminal Enterprises/
                                                  Intelligence Decision   Counterintelligence       Federal Crimes        Criminal Justice
                                                           Unit             Decision Unit            Decision Unit     Services Decision Unit    Consolidated

   Goal 1: Prevent Terrorism and Promote the Nation's Security
    Gross Cost                                    $            824,534 $            2,243,935 $             1,693,449 $              423,409 $          5,185,327
    Less: Earned Revenue                                       395,375                 43,888                  33,591                 35,142              507,996
    Net Cost of Operations                                     429,159              2,200,047               1,659,858                388,267            4,677,331

   Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
    Gross Cost                                                611,686                1,664,678              1,256,297                314,109            3,846,770
    Less: Earned Revenue                                         8,798                  24,960                378,267                355,185              767,210
    Net Cost of Operations                                    602,888                1,639,718                878,030                (41,076)           3,079,560

   Net Cost of Operations                         $          1,032,047 $            3,839,765 $             2,537,888 $              347,191 $          7,756,891




Federal Bureau of Investigation                                             - 60 -
                                            These notes are an integral part of the financial statements.
                Notes to the Financial Statements


17.     Imputed Financing from Costs Absorbed by Others
Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and under-
reimbursed) portion of the full costs of goods and services received by the FBI from a providing entity
that is not part of the DOJ. In accordance with SFFAS No. 30, Inter-Entity Cost Implementation
Amending SFFAS 4, Managerial Cost Accounting Standards and Concepts, the material Imputed Inter-
Departmental financing sources recognized by the FBI are the actual cost of future benefits for the
Federal Employees Health Benefits Program (FEHB), the Federal Employees Group Life Insurance
Program (FEGLI), and the federal pension plans that are paid by other federal entities, and any
unreimbursed payments made from the Treasury Judgment Fund on behalf of the FBI. The Treasury
Judgment Fund was established by Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the
court judgments and settlement agreements negotiated by the Department on behalf of agencies, as well
as certain types of administrative awards. Interpretation of Federal Financial Accounting Standards No. 2,
Accounting for Treasury Judgment Fund Transactions, requires agencies to recognize liabilities and
expense when unfavorable litigation outcomes are probable and the amount can be estimated and will be
paid by the Treasury Judgment Fund.
SFFAS No. 5 requires that employing agencies recognize the cost of pensions and other retirement
benefits during their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits expected to be
paid in the future, and then determine the total funds to be contributed by and for covered employees,
such that the amount calculated would be sufficient to fund the projected pension benefits. For
employees covered by CSRS, the cost factors are 30.1 percent of basic pay for regular, 51.1 percent law
enforcement officers, 23.5 percent regular offset, and 45.6 percent law enforcement officers offset. For
employees covered by FERS, the cost factors are 13.8 percent of basic pay for regular and 29.8 percent
for law enforcement officers.
The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are paid
by other federal entities, must also be recorded.
Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, Managerial Cost Accounting
Concepts and Standards for the Federal Government, are the unreimbursed portion of the full costs of
goods and services received by the FBI from a providing entity that is part of the DOJ. Recognition is
required for those transactions determined to be material to the receiving entity. The determination of
whether the cost is material requires considerable judgment based on the specific facts and circumstances
of each type of good or service provided. SFFAS No. 4 also states that costs for broad and general
support need not be recognized by the receiving entity, unless such services form a vital and integral part
of the operations or output of the receiving entity. Costs are considered broad and general if they are
provided to many, if not all, reporting components and not specifically related to the receiving entity’s
output. The FBI does not have any imputed intra-departmental financing sources.




Federal Bureau of Investigation                       - 61 -
                             These notes are an integral part of the financial statements.
                 Notes to the Financial Statements


17.     Imputed Financing from Costs Absorbed by Others (continued)


          For the Fiscal Years Ended September 30, 2011 and 2010
                                                                2011                                            2010

          Imputed Inter-Departmental Financing
            Treasury Judgment Fund                                         $       11,862               $        117,846
            Health Insurance                                                      181,280                        163,604
            Life Insurance                                                            679                            635
            Pension                                                               111,308                         72,779
              Total Imputed Financing                                      $      305,129               $        354,864




18.     Information Related to the Statement of Budgetary Resources
Apportionment Categories of Obligations Incurred:
The apportionment categories are determined in accordance with the guidance provided in Part 4,
Instructions on Budget Execution, of OMB Circular A-11, Preparation, Submission and Execution of the
Budget. Category A represents resources apportioned for calendar quarters. Category B spending
includes supplemental “bridged” funding for: Overseas Contingency Operations, Render Safe mission,
and FBI Laboratory requirements. Category B also includes funds appropriated for digital technology
upgrades; mortgage fraud investigations; operations along the U.S. southwest border; biometric
operations; training operations at Quantico, Virginia; secure facilities; and improvised explosive devices
analysis. These are per OMB's guidance.

                                                                                       Reimbursable         Total Obligations
                                                             Direct Obligations         Obligations             Incurred
        For the Fiscal Year Ended September 30, 2011
          Obligations Apportioned Under:
            Category A                                        $      7,807,714     $        1,300,384       $      9,108,098
            Category B                                                 294,175                      -                294,175
          Total                                               $      8,101,889     $        1,300,384       $      9,402,273

        For the Fiscal Year Ended September 30, 2010
          Obligations Apportioned Under:
            Category A                                        $      7,800,198     $        1,214,320       $      9,014,518
            Category B                                                 478,216                      -                478,216
          Total                                               $      8,278,414     $        1,214,320       $      9,492,734


Status of Undelivered Orders:
Undelivered Orders (UDO) represents the amount of goods and/or services ordered, which have not been
actually or constructively received. This amount includes any orders which may have been prepaid or
advanced but for which delivery or performance has not yet occurred.




Federal Bureau of Investigation                            - 62 -
                                  These notes are an integral part of the financial statements.
                  Notes to the Financial Statements


18.     Information Related to the Statement of Budgetary Resources (continued)

          As of September 30, 2011 and 2010
                                                                                  2011                    2010
          UDO Obligations Unpaid                                          $        2,258,248          $    2,334,713
          UDO Obligations Prepaid/Advanced                                            74,140                  80,434
           Total UDO                                                      $        2,332,388          $    2,415,147


Legal Arrangements Affecting Use of Unobligated Balances:
Unobligated balances represent the cumulative amount of budget authority that is not obligated and that
remains available for obligation based on annual legislative requirements and other enabling authorities,
unless otherwise restricted. The use of unobligated balances is restricted based on annual legislation
requirements and other enabling authorities. Funds are appropriated on an annual, multi-year, and no-
year basis. Appropriated funds shall expire on the last day of availability and are no longer available for
new obligations. Unobligated balances in unexpired fund symbols are available in the next fiscal year for
new obligations unless some restrictions have been placed on those funds by law. Amounts in expired
fund symbols are not available for new obligations, but may be used to adjust previously established
obligations.
Statement of Budgetary Resources vs. the Budget of the United States Government:
The Statement of Budgetary Resources versus the Budget of the U.S. Government as of September 30,
2010 is presented below.
The reconciliation as of September 30, 2011 is not presented because the submission of the Budget of the
United States Government (Budget) for FY 2013, which presents the execution of the FY 2011 Budget,
occurs after publication of these financial statements. The DOJ Budget Appendix can be found on the
OMB website (http://www.whitehouse.gov/omb/budget) and will be available in early February 2012.
Expired Funds are reported in the FBI’s Statement of Budgetary Resources, but not reported in the
Budget.

      For the Fiscal Year Ended September 30, 2010
        (Dollars in Millions)

                                                                Budgetary             Obligations
                                                                Resources              Incurred               Net Outlays
      Statement of Budgetary Resources (SBR)                  $       10,440        $          9,493      $            7,559

      Funds not Reported in the Budget
        Expired Funds                                                     (395)                   (110)                    -

      Budget of the United States Government                  $         10,045      $             9,383   $           7,559




Federal Bureau of Investigation                            - 63 -
                                  These notes are an integral part of the financial statements.
                    Notes to the Financial Statements


19.       Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the Statement of
          Financing)


For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                                    2011              2010
Resources Used to Finance Activities
      Budgetary Resources Obligated
         Obligations Incurred                                                                   $    9,402,273    $    9,492,734
         Less: Spending Authority from Offsetting Collections
                 and Recoveries                                                                      1,538,058         1,416,924
         Obligations Net of Offsetting Collections and Recoveries                                    7,864,215         8,075,810
         Less: Offsetting Receipts                                                                      (7,284)              253
         Net Obligations                                                                             7,871,499         8,075,557
    Other Resources
        Transfers-In/Out Without Reimbursement                                                          74,270            69,206
        Imputed Financing from Costs Absorbed by Others (Note 17)                                      305,129           354,864
        Other                                                                                           (4,613)                -
        Net Other Resources Used to Finance Activities                                                 374,786           424,070
Total Resources Used to Finance Activities                                                           8,246,285         8,499,627
Resources Used to Finance Items not Part of the Net Cost of
    Operations
        Net Change in Budgetary Resources Obligated for Goods, Services,
            and Benefits Ordered but not Yet Provided                                                   77,563         (303,377)
        Resources That Fund Expenses Recognized in Prior Periods (Note 20)                             (14,829)         (64,235)
        Budgetary Offsetting Collections and Receipts That do not
            Affect Net Cost of Operations                                                              (7,284)              253
        Resources That Finance the Acquisition of Assets                                             (560,023)         (677,990)
        Other Resources or Adjustments to Net Obligated Resources
            That do not Affect Net Cost of Operations                                                  13,026                4,847
Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                                    (491,547)        (1,040,502)
Total Resources Used to Finance the Net Cost of Operations                                      $    7,754,738    $    7,459,125

Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
    Components That Will Require or Generate Resources
        in Future Periods (Note 20)                                                             $       5,076     $      29,230
    Depreciation and Amortization                                                                     247,881           193,657
    Revaluation of Assets or Liabilities                                                               16,217            24,101
    Other                                                                                             (70,898)           50,778
Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                                               198,276           297,766
Net Cost of Operations                                                                          $    7,953,014    $    7,756,891




Federal Bureau of Investigation                              - 64 -
                                    These notes are an integral part of the financial statements.
                      Notes to the Financial Statements


20.	        Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
            Components of Net Cost of Operations Requiring or Generating Resources in Future
            Periods
Liabilities that are not covered by realized budgetary resources and for which there is not certainty that
budgetary authority will be realized, such as the enactment of an appropriation, are considered liabilities
not covered by budgetary resources. These liabilities totaling $546,393 and $550,067 as of September 30,
2011 and 2010, respectively, are discussed in Note 10, Liabilities not Covered by Budgetary Resources.
Decreases in these liabilities result from current year budgetary resources that were used to fund expenses
recognized in prior periods. Increases in these liabilities represent unfunded expenses that were
recognized in the current period. These increases along with the change in the portion of exchange
revenue receivables from the public, which are not considered budgetary resources until collected,
represent components of current period net cost of operations that will require or generate budgetary
resources in future periods. The changes in liabilities not covered by budgetary resources and receivables
generating resources in future periods are comprised of the following:

       For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                                     2011             2010
       Resources that Fund Expenses Recognized in Prior Periods
        Other
          Decrease in Actuarial FECA Liabilities                                               $            -     $       (465)
          Decrease in Accrued FECA Liabilities                                                           (402)          (1,554)
          Decrease in Contingent Liabilties                                                           (14,427)         (62,216)
            Total Resources that Fund Expenses Recognized in Prior Periods                     $      (14,829)    $    (64,235)

       Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
        Increase in Accrued Annual and Compensatory Leave Liabilities                         $          4,753    $     20,912
        Increase in Environmental and Disposal Liabilities                                                 232           9,755
        (Increase)/Decrease in Exchange Revenue Receivable from the Public                              (1,899)            351
        Other
          Increase in Actuarial FECA Liabilities                                                         6,073               -
          Increase in Other Unfunded Employment Related Liabilities                                         97               3
          (Increase)/Decrease in Surcharge Revenue Receivable from Other Federal Agencies               (4,180)         (1,791)
            Total Other                                                                                  1,990          (1,788)
            Total Components of Net Cost of Operations That Will Require or Generate
            Resources in Future Periods                                                       $         5,076     $     29,230




Federal Bureau of Investigation                                 - 65 -
                                     These notes are an integral part of the financial statements.
This page intentionally left blank. 





           - 66 -
U.S. DEPARTMENT OF JUSTICE


FEDERAL BUREAU OF INVESTIGATION



   REQUIRED SUPPLEMENTARY INFORMATION
               (UNAUDITED)




                  - 67 -
                                                                      U.S. Department of Justice

                                                                    Federal Bureau of Investigation

                                                               Required Supplementary Information

                                                           Combining Statement of Budgetary Resources

                                                                      By Major Appropriation

                                                                             Unaudited

                                                           For the Fiscal Year Ended September 30, 2011


Dollars in Thousands                                                                                                                          2011
                                                                                   CNST               VCRP           S&E                 TOTAL

Budge tary Resources
   Unobligated Balance, Brought Forward, October 1                             $      166,000     $          4   $      780,873      $       946,877


   Recoveries of Prior Year Unpaid Obligations                                         25,421                -          191,143              216,564


   Budget Authority
       Appropriations Received                                                        107,310                -         7,834,622            7,941,932
       Spending Authority from Offsetting Collections
            Earned
             Collected                                                                     15                -         1,307,265            1,307,280
             Change in Receivables from Federal Sources                                      -               -             19,410             19,410
            Change in Unfilled Customer Orders
             Advance Received                                                                -               -               771                 771
             Without Advance from Federal Sources                                            -               -             (5,967)             (5,967)
   Subtotal Budget Authority                                                          107,325                -         9,156,101            9,263,426

   Nonexpenditure Transfers, Net, Actual                                                  (288)              -           (60,888)             (61,176)

   Permanently not Available                                                              (215)              -           (15,669)             (15,884)


Total Budgetary Resources                                                      $     298,243      $          4   $   10,051,560      $    10,349,807

Status of Budge tary Re sources
   Obligations Incurred
       Direct                                                                  $      194,522     $          4   $     7,907,363     $      8,101,889
       Reimbursable                                                                          -               -         1,300,384            1,300,384
            Total Obligations Incurred                                                194,522                4         9,207,747            9,402,273
   Unobligated Balance - Available
       Apportioned                                                                    103,706                -          490,607              594,313
            Total Unobligated Balance - Available                                     103,706                -          490,607              594,313
   Unobligated Balance not Available                                                       15                -          353,206              353,221


Total Status of Budge tary Re sources                                          $     298,243      $          4   $   10,051,560      $    10,349,807


Change in Obligated Balance
   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations                                                      $      379,835     $          -   $     2,841,976     $      3,221,811
       Less: Uncollected Customer Payments from Federal Sources                              -               -          479,261              479,261
            Total Unpaid Obligated Balance, Net - Brought Forward, October 1          379,835                -         2,362,715            2,742,550
   Obligations Incurred, Net                                                          194,522                4         9,207,747            9,402,273
   Less: Gross Outlays                                                                153,670                -         9,088,582            9,242,252
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                           25,421                -          191,143              216,564
   Change in Uncollected Customer Payments from Federal Sources                              -               -           (13,443)             (13,443)


   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                             395,266                4         2,769,998            3,165,268
       Less: Uncollected Customer Payments from Federal Sources                              -               -          492,704              492,704
           Total Unpaid Obligated Balance , Net - End of Pe riod               $     395,266      $          4   $    2,277,294      $     2,672,564


Net Outlays
   Gross Outlays                                                               $      153,670     $          -   $     9,088,582     $      9,242,252
   Less: Offsetting Collections                                                            15                -         1,308,036            1,308,051
   Less: Distributed Offsetting Receipts                                                     -               -             (7,284)             (7,284)
Total Net Outlays                                                              $     153,655      $          -   $    7,787,830      $     7,941,485




Federal Bureau of Investigation
                                                                           - 68 -
                                                                      U.S. Department of Justice

                                                                    Federal Bureau of Investigation

                                                               Required Supplementary Information

                                                           Combining Statement of Budgetary Resources

                                                                      By Major Appropriation

                                                                             Unaudited

                                                           For the Fiscal Year Ended September 30, 2010


Dollars in Thousands                                                                                                                          2010
                                                                                   CNST               VCRP            S&E                TOTAL
Budge tary Resources

   Unobligated Balance, Brought Forward, October 1                             $      254,582     $           -   $     805,452      $      1,060,034


   Recoveries of Prior Year Unpaid Obligations                                            2,426              44         164,093              166,563


   Budget Authority
       Appropriations Received                                                        239,915                 -        7,682,622            7,922,537
       Spending Authority from Offsetting Collections
            Earned
             Collected                                                                        -               -        1,338,006            1,338,006
             Change in Receivables from Federal Sources                                       -               -              1,699              1,699
            Change in Unfilled Customer Orders
             Advance Received                                                                 -               -           17,463               17,463
             Without Advance from Federal Sources                                             -               -         (106,807)            (106,807)
   Subtotal Budget Authority                                                          239,915                 -        8,932,983            9,172,898


   Nonexpenditure Transfers, Net, Actual                                               30,000                 -             60,116            90,116


   Permanently not Available                                                                  -               -          (50,000)             (50,000)


Total Budgetary Resources                                                      $     526,923      $          44   $   9,912,644      $    10,439,611



Status of Budge tary Re sources

   Obligations Incurred
       Direct                                                                  $      360,923     $          40   $    7,917,451     $      8,278,414
       Reimbursable                                                                           -               -        1,214,320            1,214,320
            Total Obligations Incurred                                                360,923                40        9,131,771            9,492,734
   Unobligated Balance - Available
       Apportioned                                                                    165,716                 4         382,176              547,896
            Total Unobligated Balance - Available                                     165,716                 4         382,176              547,896
   Unobligated Balance not Available                                                       284                -         398,697              398,981


Total Status of Budge tary Resources                                           $     526,923      $          44   $   9,912,644      $    10,439,611
Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
       Unpaid Obligations                                                      $      102,765     $          38   $    2,707,319     $      2,810,122
       Less: Uncollected Customer Payments from Federal Sources                               -               -         584,369              584,369
            Total Unpaid Obligated Balance, Net - Brought Forward, October 1          102,765                38        2,122,950            2,225,753
   Obligations Incurred, Net                                                          360,923                40        9,131,771            9,492,734
   Less: Gross Outlays                                                                 81,427                34        8,833,021            8,914,482
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                              2,426              44         164,093              166,563
   Change in Uncollected Customer Payments from Federal Sources                               -               -         105,108              105,108


   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                             379,835                 -        2,841,976            3,221,811
       Less: Uncollected Customer Payments from Federal Sources                               -               -         479,261              479,261
           Total Unpaid Obligated Balance , Ne t - End of Pe riod              $     379,835      $           -   $   2,362,715      $     2,742,550
Net Outlays
   Gross Outlays                                                               $       81,427     $          34   $    8,833,021     $      8,914,482
   Less: Offsetting Collections                                                               -               -        1,355,469            1,355,469
   Less: Distributed Offsetting Receipts                                                      -               -               253                253
Total Net Outlays                                                              $      81,427      $          34   $   7,477,299      $     7,558,760




Federal Bureau of Investigation
                                                                           - 69 -
